          OFFICE OF
   THE INSPECTOR GENERAL
         U.S. NUCLEAR
   REGULATORY COMMISSION



    Audit of NRC’s Baseline Inspection Program

         OIG-05-A-06 December 22, 2004




              AUDIT REPORT




All publicly available OIG reports are accessible through
                     NRC’s Web site at:
http://www.nrc.gov/reading-rm/doc-collections/ionsp-gen/
                                      December 22, 2004



MEMORANDUM TO:                Luis A. Reyes
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      AUDIT OF NRC’S BASELINE INSPECTION PROGRAM
                              (OIG-05-A-06)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Baseline Inspection Program.

The report reflects the results of our audit to determine whether NRC’s baseline inspection
program (1) is based on a sound methodology, (2) is carried out by sufficient, qualified staff,
and (3) is completed at all operating commercial nuclear power plants. Overall, the audit
found that NRC staff, licensees, and stakeholders view the Reactor Oversight Process,
which includes the baseline inspection program, as a significant improvement over the
previous plant assessment program. However, OIG identified several weaknesses
associated with the baseline program. Specifically, NRC’s baseline inspection program is
generally sound, but needs improvement; impacts on the baseline program from resource
challenges are likely to continue; the resident inspector training program needs
improvement; the report of 100 percent baseline inspection program completion in CY 2002
is not fully supported by documentation; and guidance is unclear for new baseline
completion criteria.

This report makes 10 recommendations to improve the efficiency and effectiveness of the
baseline inspection program.

During an exit conference on August 30, 2004, NRC officials provided informal comments
concerning the draft audit report. Subsequent to that meeting, OIG met with NRR senior
managers to address issues and comments needing further clarification and/or explanation.
Comments your office provided at the exit meeting, during subsequent discussions, and in
your November 23, 2004, written response to the draft report have been incorporated, as
appropriate, in our final report. Appendix F contains your written response in its entirety.
Appendix G contains our point-by-point analysis of the agency’s formal comments.

If you have any questions, please call Russ Irish at 415-5972 or me at 415-5915.

Attachment: As stated
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
William M. Dean, Assistant for Operations, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV
                                                      Audit of NRC’s Baseline Inspection Program


EXECUTIVE SUMMARY

   BACKGROUND

        The Nuclear Regulatory Commission (NRC) is responsible for developing,
        implementing, and enforcing rules and regulations that govern licensed,
        commercial nuclear power plants. To carry out that responsibility, NRC
        conducts inspections at the Nation’s 103 operating commercial nuclear power
        plants to ensure adequate protection of the public health and safety, the
        common defense and security, and the environment in the civilian use of
        nuclear materials.

        Beginning in April 2000, the NRC’s Reactor Inspection Program and the
        Reactor Performance Assessment program were combined into a single
        program for commercial nuclear power plants. This combined program
        implements the revised reactor oversight process (ROP). An integral part of
        the ROP is the baseline inspection program, which was developed using a
        risk-informed approach to determine a comprehensive list of areas to inspect
        (i.e., inspectable areas). The baseline inspection program evaluates licensee
        performance in areas not measured, or not fully measured, by licensee-
        reported performance indicators.

        NRC resident inspectors and senior resident inspectors located at each plant
        site carry out a major part of the baseline inspection program. Their primary
        role is to observe, evaluate, and verify the adequacy of licensees' nuclear
        safety activities, concentrating on day-to-day licensee operational and event
        follow-up activities, and licensee activities and processes that are important
        to safety and reliability. In addition, region-based inspectors with specific
        qualifications have primary responsibility for performing a number of the
        baseline inspection procedures related to specialty areas, such as Radiation
        Protection and Physical Security Protection. NRC uses inspectors from
        headquarters, as requested by the regions and in exceptional circumstances,
        to provide the regions with assistance towards the completion of the baseline
        inspection program.

   PURPOSE

        This audit was conducted to determine whether NRC’s baseline inspection
        program:

        <       is based on a sound methodology,
        <       is carried out by sufficient, qualified staff, and
        <       is completed at all operating commercial nuclear power plants.




                                       i
                                                                 Audit of NRC’s Baseline Inspection Program

    RESULTS IN BRIEF

            Overall, NRC staff, licensees, and stakeholders view the ROP, which
            includes the baseline inspection program, as a significant improvement over
            the previous, more subjective, plant assessment program. NRC's most
            recent ROP self-assessment1 indicates that the ROP was generally effective
            in monitoring operating commercial nuclear power plant activities, as well as
            focusing NRC resources on significant performance issues in CY 2003. As a
            result, the staff believes that plants are receiving an appropriate level of
            oversight commensurate with their performance. However, the Office of the
            Inspector General (OIG) identified weaknesses associated with the program.
            Specifically,

            A.       the baseline inspection program framework is generally sound, but
                     needs improvement (see page 7),

            B.       impacts on the baseline inspection program from resource challenges
                     are likely to continue (see page 25),

            C.       the resident inspector training program needs improvement (see page
                     31),

            D.       the report of 100 percent baseline inspection program completion in
                     CY 2002 is not fully supported by documentation (see page 35), and

            E.       guidance is unclear for new baseline completion criteria (see page
                     40).

            These issues exist primarily because the agency lacks a mechanism to
            assess the overall effectiveness and quality of the baseline program. As a
            result, issues such as unclear guidance, inconsistent implementation of the
            program, and insufficient documentation of inspection activities have not
            been adequately evaluated. Due to its importance in ensuring the Nation’s
            safety, additional management focus is warranted to improve the
            effectiveness of NRC’s baseline inspection program. Although the current
            program provides a framework for managing the agency’s
            inspection activities at operating nuclear power plants, the program should be
            strengthened to better define expectations regarding implementation,
            completion, and training. Addressing the identified weaknesses will improve
            the overall effectiveness and efficiency of the baseline program and provide
            assurance that all aspects of the program are coordinated.




1
    SECY-04-0053, Reactor Oversight Process Self-Assessment for Calendar Year 2003, dated April 6,
    2004.

                                                ii
                                                    Audit of NRC’s Baseline Inspection Program

RECOMMENDATIONS

      A Consolidated List of Recommendations appears on page 43 of this report.

OIG ANALYSIS OF AGENCY COMMENTS

      At an exit conference with agency senior executives held on August 30,
      2004, NRC officials generally agreed with most of the report’s findings and
      recommendations. Subsequent to that meeting, OIG met with NRR senior
      managers to address specific issues and concerns needing further
      clarification and/or explanation. On November 23, 2004, the Executive
      Director for Operations (EDO) provided a formal response to this report in
      which he agreed with nine of the report’s eleven recommendations.
      However, the EDO stated that Recommendation 3 is not appropriate under
      the current ROP philosophy and that Recommendation 5 would be better
      addressed through the agency’s response to Recommendation 4. The
      EDO’s transmittal letter and specific comments on this report are included as
      Appendix F.

      This final report incorporates revisions made, where appropriate, as a result
      of the subsequent meetings and the agency’s informal and formal written
      comments. Because OIG takes exception to the agency’s comments
      regarding Recommendations 3 and 5, a point-by-point analysis is presented
      in Appendix G. Recommendation 5 has been retracted and will be
      addressed, as the agency requested, through the agency’s response to
      Recommendation 4. However, upon submittal, OIG will evaluate the
      agency’s proposed plan of action for addressing Recommendation 4 to
      ensure that the intent of Recommendation 5 is incorporated.




                                    iii
                               Audit of NRC’s Baseline Inspection Program




[Page intentionally left blank.]




              iv
                                           Audit of NRC’s Baseline Inspection Program


ABBREVIATIONS AND ACRONYMS

       BWR         boiling-water reactor
       CFR         Code of Federal Regulations
       CY          calendar year
       EDO         Executive Director for Operations
       FTE         full-time equivalents
       FY          fiscal year
       GE          General Electric
       IMC         Inspection Manual Chapter
       NRC         Nuclear Regulatory Commission
       NRR         Office of Nuclear Reactor Regulation
       OIG         Office of the Inspector General
       OMB         Office of Management and Budget
       PWR         pressurized-water reactor
       ROP         reactor oversight process
       ROP3        reactor oversight process inspection cycle 3




                            v
                               Audit of NRC’s Baseline Inspection Program




[Page intentionally left blank.]




              vi
                                                                               Audit of NRC’s Baseline Inspection Program


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
    I.       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    II.      PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
    III.     FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
             A.        THE BASELINE INSPECTION PROGRAM FRAMEWORK IS GENERALLY SOUND,
                       BUT NEEDS IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                       A.1        Agency Lacks Documentation to Support Rationale for
                                  Sampling Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                       A.2        Operating Experience Program Needs Improvement . . . . . 12
                       A.3        Agency Lacks Clear Guidance on Handling Informal Issues 17
                       A.4        Performance Measures Need Improvement . . . . . . . . . . . . 21

             B.        IMPACTS ON THE BASELINE INSPECTION PROGRAM FROM RESOURCE
                       CHALLENGES ARE LIKELY TO CONTINUE . . . . . . . . . . . . . . . . . . . . . . . 25

             C.        THE RESIDENT INSPECTOR TRAINING PROGRAM NEEDS
                       IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

             D.        THE REPORT OF 100 PERCENT BASELINE INSPECTION PROGRAM
                       COMPLETION IN CY 2002 IS NOT FULLY SUPPORTED BY
                       DOCUMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

             E.        GUIDANCE IS UNCLEAR FOR NEW BASELINE COMPLETION CRITERIA . . . 40


    IV.      CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . 43

    V.       AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44

    APPENDICES

    A.       SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
    B.       DISCUSSION OF GUIDANCE ON PERFORMANCE AND OUTPUT
             MEASURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
    C.       OPERATING PLAN PERFORMANCE MEASURES . . . . . . . . . . . . . . . . . 53
    D.       DETAILS OF OIG’S REVIEW OF CY 2002 BASELINE INSPECTION
             PROGRAM COMPLETION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
    E.       BASELINE INSPECTION PROGRAM INSPECTION PROCEDURES . . . . 59
    F.       FORMAL AGENCY COMMENTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61
    G.       DETAILED OIG ANALYSIS OF AGENCY COMMENTS. . . . . . . . . . . . . . . 65



                                                        vii
                               Audit of NRC’s Baseline Inspection Program




[Page intentionally left blank.]




              viii
                                                                  Audit of NRC’s Baseline Inspection Program


I. BACKGROUND



                                              Authorization and Responsibilities

                                              The NRC is responsible for developing,
                                              implementing, and enforcing rules and regulations
                                              that govern licensed, commercial nuclear power
                                              plants. Under the Atomic Energy Act and the
                                              Commission’s regulations, licensees must allow
                                              NRC representatives to inspect the premises and
                                              facilities where nuclear material is used or stored.
                                              NRC conducts inspections at the Nation’s 103
                                              operating commercial nuclear power plants to
                                              ensure adequate protection of the public health
                                              and safety, the common defense and security, and
                                              the environment in the civilian use of nuclear
                                              materials.


Fort Calhoun nuclear power plant
   (Photo courtesy of NRC Website)



                             Principles of Good Regulation

                  NRC adheres to the Principles of Good Regulation, which, among other
                  things, includes elements of independence, openness, and clarity.
                  Independence means that NRC decisions will be based on “objective,
                  unbiased assessments of all information . . .” and documented with reasons
                  explicitly stated. Openness considers that “Nuclear regulation is the public's
                  business, and it must be transacted publicly and candidly. The public must
                  be informed about and have the opportunity to participate in the regulatory
                  processes as required by law.” And clarity means that “Regulations should
                  be coherent, logical, and practical. There should be a clear nexus between
                  regulations and agency goals and objectives whether explicitly [or implicitly]
                  stated. Agency positions should be readily understood and easily applied.”


                             The Reactor Oversight Process Framework

                  Beginning in April 2000, the NRC’s Reactor Inspection Program and the
                  Reactor Performance Assessment program were combined into a single
                  program for commercial nuclear power plants. This combined program
                  implements the revised reactor oversight process (ROP). The ROP is
                  designed to verify that agency licensees operate in accordance with NRC
                  rules and regulations in order to identify and resolve issues before the safety

                                                  1
                                                                                                       Audit of NRC’s Baseline Inspection Program

     of plant operations is affected. The ROP includes risk-informed baseline
     inspections, use of licensees’ performance indicator data, and a revised
     reactor assessment process. Another goal of the ROP is to effectively focus
     attention on risk-significant activities while reducing unnecessary regulatory
     burden on licensees.

     The ROP assesses three key performance areas: reactor safety, radiation
     safety, and safeguards. Each area contains “cornerstones” of safety that
     reflect the essential aspects of safe plant operation. The following chart
     shows the seven ROP cornerstones and three ROP cross-cutting areas
     within which NRC assesses licensee performance.


REACTOR OVERSIGHT PROCESS PERFORMANCE AREAS AND CORNERSTONES




                   Mission:
                                                  Protect Public Health and Safety
                                                  in the Operation of Commercial
                                                       Nuclear Power Plants




      Performance Areas:



                                 Reactor Safety                                Radiation Safety               Safeguards




      Cornerstones:


      Initiating              Mitigating           Barrier      Emergency        Occupational      Public
                                                                                                               Physical
       Events                 Systems             Integrity    Preparedness       Radiation       Radiation
                                                                                                               Protection
                                                                                    Safety         Safety


                                                     Cross-cutting areas:
                                                    - human performance
                                            - safety conscious work environment
                                           - problem identification and resolution




     There are two main principles of the ROP:

                                                                         2
                                                                          Audit of NRC’s Baseline Inspection Program



<      the agency’s mission of assuring public health and safety is met when
       the agency has reasonable assurance that licensees are meeting the
       objectives of the seven cornerstones, and

<      there is a level of performance above which the NRC does not need
       to engage the licensee beyond some minimum level of oversight.

The ROP uses both inspection findings developed from selective
examinations and performance indicator data to assess plant performance
within the framework of the seven cornerstones of safety.




       The proportions for each area are: baseline - 93%; plant-specific - 5%; and generic
       issues - 2%.
The
ROP inspection process is composed of three major elements:

1.     a baseline inspection program, [emphasis added]

2.     plant-specific inspections, and

3.     generic issue inspections (address areas of emerging concern or
       those requiring increased emphasis because of recurring problems).

       The Baseline Inspection Program

The baseline inspection program is an integral part of the agency’s reactor
oversight process. The program was developed using a risk-informed
approach to determine a comprehensive list of areas to inspect (i.e.,
inspectable areas) within each of the seven cornerstones. The baseline
inspection program evaluates licensee performance in areas not measured,
or not fully measured, by licensee-reported performance indicators.

       Baseline Inspection Program Objectives
                                               3
                                                               Audit of NRC’s Baseline Inspection Program



               According to NRC's Inspection Manual Chapter (IMC) 2515, Appendix A,
               Risk-Informed Baseline Inspection Program, the baseline program supports
               the goals and objectives of the reactor oversight process. The program’s
               objectives are:

               •       to obtain sufficient inspection information to use in conjunction with
                       performance indicators to assess the safety performance of power
                       reactor licensees,

               C       to determine the licensee’s ability to identify, assess the significance
                       of, and effectively correct issues commensurate with their risk
                       significance,

               C       to verify the accuracy and completeness of performance indicators
                       used in conjunction with inspection findings to assess the
                       performance of power reactor licensees, and

               C       to provide a mechanism for the NRC to remain cognizant of plant
                       status and conditions.

                       Organizational Responsibilities and Budget

               The Office of Nuclear Reactor Regulation (NRR) has the overall responsibility
               for providing guidance and direction for the ROP and the baseline inspection
               program.

The agency’s four regional offices are responsible for implementing the baseline inspection
program through planning and conducting the inspections.

                                       The FY 2003 costs for the ROP exceeded approximately
                                       336 full-time equivalents (FTE) with an additional $16.4
                                       million spent for contractor support and travel costs.
                                       Approximately 251 FTE were expended toward completing
                                       the baseline inspection program. The agency estimated
                                       approximately 350 FTE for the ROP in FY 2004 (including
                                       contractor support and travel costs) of which about 271
                                       are for completing the baseline inspection program. Table
                                       1 shows the allocation and actual usageof ROP resources
                                       dedicated for the baseline inspection program in the four
          Inspection Planning          regions. According to NRR, the actual resources
       (Photo courtesy of NRC Website)
                                       expended on the baseline inspection program in calendar
year (CY) 2003 included time spent on direct inspections, inspection preparation and
documentation, and plant status efforts.




                                               4
                                                                       Audit of NRC’s Baseline Inspection Program

                    Table 1: Baseline Inspection Program Resources

    Fiscal Year           FTE Allocated             Actual FTE Expended/calendar year2
       2003                    273.3                               251 /CY 2003
       2004                     2713                       CY 2004 (to be determined)

              In an effort to avoid baseline inspection program resource challenges in
              future years, NRC added 15 FTE inspector positions for FY 2004 through FY
              2006. The additional FTE is intended to increase inspector resources for
              performing plant-specific activities and supplemental inspections.

                       Baseline Inspection Program Inspectors

              Resident inspectors and senior resident inspectors located at each plant site
              carry out a major part of the baseline inspection program and also participate,
              to a lesser degree, in plant-specific and generic safety issue inspections.
              Their primary role is to observe, evaluate, and verify the adequacy of
              licensees' nuclear safety activities, concentrating on day-to-day licensee
              operational and event follow-up activities, and licensee activities and
              processes that are important to safety and reliability.

              In addition, region-based inspectors with specific qualifications have primary
              responsibility for performing a number of the baseline inspection procedures
              related to specialty areas, such as Radiation Protection and Physical Security
              Protection. NRC uses inspectors from headquarters, as requested by the
              regions and in exceptional circumstances, to provide the regions assistance
              towards the completion of the baseline inspection program.




2
      The ROP is implemented on a calendar year basis; however, staff obtains and reports resource data on
      a fiscal year basis. The staff asserts that there is no reason to believe that these results would be
      significantly different if prepared on a calendar year basis. Nonetheless, OIG requested NRR to provide
      actual numbers for the CY 2003 total resource effort.

3
      In March 2004, the agency increased its FY 2004 regional allocation by 3 FTE to 271 FTE for
      baseline inspections.
                                                    5
                                                                 Audit of NRC’s Baseline Inspection Program


II. PURPOSE

             The objectives of this audit were to determine whether the baseline
             inspection program:

             ‚       is based on a sound methodology,

             ‚       is carried out by sufficient, qualified staff, and

             ‚       is completed at all operating commercial nuclear power plants.

             Appendix A provides a detailed description of the audit’s scope and
             methodology.


III. FINDINGS

             Overall, NRC staff, licensees, and stakeholders view the ROP, which
             includes the baseline inspection program, as a significant improvement over
             the previous, more subjective, plant assessment program. NRC's most
             recent ROP self-assessment4 indicates that the ROP was generally effective
             in monitoring operating commercial nuclear power plant activities, as well as
             focusing NRC resources on significant performance issues in CY 2003. As a
             result, the staff believes that plants are receiving an appropriate level of
             oversight commensurate with their performance. However, OIG identified
             weaknesses associated with the program. Specifically,

             A.      the baseline inspection program framework is generally sound, but
                     needs improvement,

             B.      impacts on the baseline inspection program from resource challenges
                     are likely to continue,

             C.      the resident inspector training program needs improvement,

             D.      the report of 100 percent baseline inspection program completion in
                     CY 2002 is not fully supported by documentation, and

             E.      guidance is unclear for new baseline completion criteria.




4
     SECY-04-0053, Reactor Oversight Process Self-Assessment for Calendar Year 2003, dated
     April 6, 2004.
                                                6
                                                   Audit of NRC’s Baseline Inspection Program



     As stated by one regional administrator, the baseline inspection program
     provides a good foundation for licensee oversight, but its effective
     implementation needs significant management involvement. Addressing
     these weaknesses will improve the efficiency and effectiveness of the
     baseline inspection program.


A. THE BASELINE INSPECTION PROGRAM FRAMEWORK IS GENERALLY
SOUND, BUT NEEDS IMPROVEMENT

     In general, NRC staff and industry representatives believe the baseline
     inspection program's framework is generally sound, in that focus on safety is
     excellent and that, for the most part, resources are appropriately focused
     across the seven cornerstones of safety. As required, the agency performs
     an annual self-assessment of the ROP which includes a discussion of
     program effectiveness. However, the overall effectiveness of the baseline
     inspection program cannot be adequately assessed because the agency
     lacks a mechanism to measure effectiveness or quality. As a result, the
     agency does not critically assess the effectiveness of several aspects of the
     baseline inspection program. For example, weaknesses in the following
     areas have not been addressed in any evaluation of the baseline inspection
     program:

     C      insufficient documentation of the rationale for the sampling
            methodology,

     C      inadvertent negative effects from changes to the operating experience
            program,

     C      inconsistent handling of informal issues, and

     C      inadequate performance measures.

     A review of the above issues could identify significant weaknesses; therefore,
     a critical re-evaluation of the current baseline inspection program is needed
     to determine whether changes are warranted.

     Agency Lacks Documentation to Support Rationale for Sampling
     Methodology

     According to agency documents, the ROP is designed to maintain safety
     more effectively by focusing NRC and industry attention on risk-significant
     activities, while reducing unnecessary regulatory burden on NRC licensees.
     The agency performs a baseline program of inspections at each operating
     commercial nuclear power plant by conducting at least a “minimum” level of
     effort (i.e., lowest acceptable number of samples) as defined by each
     inspection procedure. Yet, agency managers expect the inspection program

                                    7
                                                Audit of NRC’s Baseline Inspection Program

to be completed using a “nominal” (i.e., median) level of samples and
inspection hours even though the agency has not sufficiently documented the
basis for the sample sizes established in each inspection procedure.
Additionally, there is (1) no clear understanding of whether inspection
samples or inspection hours is the intended focus of the program and (2) no
documented rationale for the use of “minimum” versus “nominal” inspection
effort. As a result, NRC cannot assure that the defined sample sizes are
adequate to assess licensee performance or that NRC resources are being
used as efficiently as possible. In addition, the commercial nuclear power
industry and the public cannot be sure that the agency’s rationale for its
sampling methodology adequately justifies the “minimum” inspection effort.

       No Consensus on Basis for Sample Sizes

Opinions regarding the basis for the determined sample sizes vary among
agency staff responsible for developing and implementing the baseline
inspection program. OIG interviewed 7 of 14 members of the three ROP
development teams regarding the basis of the new ROP. All seven said the
ROP risk insights were provided by risk analysts' using historical knowledge,
but tempered by the team’s experience and past findings information.
According to the team’s program manager, the idea was to look at only
samples having risk significance in order to achieve a balance between
having nothing to inspect and what has to be inspected. The team also
determined the expectation of “minimum” samples and developed data
regarding how long it took (hours) to inspect an area under the old inspection
system. After the first year of trial and implementation, the agency made
major revisions to all baseline inspection procedures at which point a range
of samples from minimum to maximum was provided to give flexibility and
satisfy regional managers.

The majority of the development team members interviewed said there was
no statistical basis for the sample sizes identified for each baseline inspection
procedure. In fact, the program manager said the team “did not get to” the
population of activities in the inspectable areas to determine [statistical-
based] sample sizes because the population varies too much from plant to
plant. Other members said that:

C      the team looked at how things were done in the past and that
       information weighed into how many samples were enough;

C      the team developed "rough estimates" of the samples that could be
       done in the estimated hours; and,

C      the sampling was based on expert judgment rather than any rigorous
       statistical methodology.




                                8
                                                            Audit of NRC’s Baseline Inspection Program

           One of the program developers indicated that there was some statistical
           basis for the sample sizes, citing a 95 percent confidence5 sampling
           methodology from NUREG-1475, Applying Statistics. He added that it would
           not be possible to do “random” sampling because inspectors would have to
           do “something like 50 or 60 samples per inspection procedure.” A co-author
           of the above-referenced book said that the concept cited (i.e., 95 percent
           confidence level) does not apply to a risk-informed baseline inspection
           program because the samples must be completely random. The underlying
           concept of the risk-informed inspection program is that the program “intends”
           to examine samples which have a greater probability of impacting safe plant
           operations or, in essence, have a higher “priority.” In addition, inspectors
           may be able to further inform their inspection sample selection (e.g., picking
           “smart” samples) on higher priority areas known to have performance
           problems at the plant in question or in other, similar plants. Therefore,
           according to the statistics expert, one needs to recognize that the samples
           selected by experienced inspectors are far from “random.”

           Opinions on the basis of sample sizes also vary widely among agency
           managers responsible for implementing the baseline inspection program. For
           example, many of the senior executives OIG interviewed thought expert
           panels developed the sampling basis. Others believed that the samples were
           derived from old findings identified under the previous inspection program,
           while still others had no idea how the sample sizes were developed.
           According to some of the managers, there was no scientific bases behind the
           methodology; it was a "best guess" at what to look at. In fact, they said the
           number of samples required is minuscule in many areas compared to the
           number of licensee activities that could be sampled.

                   Focus of the New Baseline Inspection Program

           IMC 2515 states that the inspection activities [prescribed in each procedure]
           and “minimum” sample sizes must be completed to provide an adequate
           assessment of each cornerstone; hours are estimated for resource planning
           only. However, there is some misunderstanding among senior managers and
           inspectors in the field regarding whether the intended focus of the inspection
           program is samples, hours, or inspection scope. This lack of common
           understanding leads to an inconsistent application of the program.

           According to the development team program manager, the team focused on
           samples (rather than hours) -- the concept being “here’s how many things to
           inspect not how much time should be spent on those things.” Yet another
           team member said risk information was tied to the hours needed to do
           inspection work in that area, and a senior risk analyst on the team said the
           focus was on content of the inspections and not on the sample sizes. The
           analyst added that a well-defined scope of the inspection would determine


5
    According to NUREG-1475, Applying Statistics, by D. Lurie and R. Moore, dated February
    1994, “95% confidence” is a probabilistic measure of assurance.
                                            9
                                              Audit of NRC’s Baseline Inspection Program

the hours needed, and the hours would then determine the sample size
needed to satisfy the defined scope. In fact, the analyst said that doing the
same amount of activity at different plants would not be appropriate, so exact
sample sizes would "not be the way to go."

Similar to the development team members, there was no consensus among
agency senior managers or inspectors about whether samples or hours, or
both, are most important for assessing licensee performance. Generally,
those interviewed said the focus, right or wrong, is on samples. However, the
hours spent in an inspection area are considered by regional senior
managers as key to completing an inspection procedure. The lack of
common understanding of the actual intent, samples or hours, leads to
inconsistent implementation of the inspection program.

       Adequacy of Sample Sizes to Assess Licensee Performance

Overall, those NRC staff interviewed said the minimum level of inspection is
adequate to assess a licensee’s programs. Yet, without giving any specific
reasoning, nearly every senior manager interviewed said that he/she expects
or wants inspectors to inspect more than the minimum number of samples
(e.g., use nominal levels of effort). The following represent typical comments
received from every level of management on the adequacy of sample sizes:

<      A regional administrator said he “wants” inspectors to do nominal
       sample sizes, but recognizes there are resource constraints
       preventing that.

<      Division directors said that something may get missed if the agency
       continues to do just the minimum program.

<      A branch chief admitted a "concern about doing only the minimum
       sample sizes" especially for more than a year. (OIG notes that the
       minimum has been done for the last two inspection cycles.)

<      In addition, a “minimum” inspection program is adequate only if
       certain caveats and assumptions are true, such as resident inspectors
       are continually on-site. As one senior executive said, if resident
       inspectors were not on-site continually monitoring licensee
       performance, the program would not provide adequate information (at
       the minimum level of oversight).

<      A division director said that whether the sampling is adequate to
       assess licensee programs is a mixed answer, yes and no. Some
       sample sizes are so small that even doubling or tripling them would
       not be meaningful unless the population of the activity was
       correspondingly small.




                              10
                                               Audit of NRC’s Baseline Inspection Program

<      A branch chief said that the sample size in some procedures is
       unrealistic for assessing overall performance. He cited the application
       of one sample size regardless of the number of units at a site (in other
       words, an inspector could fulfill the required sample size by inspecting
       only one of multiple units at a plant).

<      Senior resident inspectors cited specific procedures where the sample
       size is out of proportion to the population of activities. For example,
       the operability evaluation procedure is "too light on samples" (i.e.,
       inspect 19-25 samples out of the 1,000-2,000 evaluations generated
       by the licensee) and a surveillance procedure requires a sample of six
       out of a "very large" number of surveillance activities.

       Use of Minimum Versus Nominal Sample Sizes

The premise of the baseline inspection program is that every plant receives
the same basic level of oversight with the flexibility of adding additional
oversight depending on NRC’s assessment of a licensee’s performance.
However, the baseline inspection program lacks clarity about "when" to do
which level of sampling (minimum or nominal). In fact, there appears to be
no criteria, aside from available time, for when to do more than the minimum
under a routine baseline inspection. For example, one deputy regional
administrator said that while his inspectors have to do the minimum program,
they are free to perform as many samples as time will allow. Other managers
said that their inspectors are to perform just the minimum because
headquarters has determined that minimum is good enough. Yet, nearly
every senior manager interviewed said it would be preferable to have
inspectors use a nominal sample size if resource shortages do not prevent
that from happening. The number of samples inspected appears dependent
on available resources as opposed to performance-based. Without clear
criteria for when more than a minimum level of effort is necessary, NRC may
experience inefficient use of its inspection staff. In addition, contrary to the
ROP’s goal of reducing unnecessary burden on licensees, accommodating
inspections of more than the required minimum samples without a clear basis
can result in an extra burden.

It is important to note that OIG is not questioning whether the sample sizes
are adequate, but rather that there is not enough support for the sample sizes
selected as the minimum necessary to adequately assess licensee
performance. The agency went to some lengths to have experts help
develop and design the baseline inspection program and the majority of
people interviewed believe the baseline inspection program is appropriately
focused on safety. Yet, there is no documented basis or sound rationale
behind the determination of sample sizes used to assess licensee
performance in the safe operation of their facilities. The agency also has no
documented rationale and or distinction of when (or why) to use more than a
minimum sample size at good performing plants.

Summary
                               11
                                               Audit of NRC’s Baseline Inspection Program



Agency managers have different opinions about the effectiveness of the
baseline inspection program, but most agree it is only effective with certain
assumptions and caveats in place. There are also differing interpretations
regarding whether the focus of the baseline inspection program should be on
the number of samples conducted or the hours spent in an inspection area,
or a combination of both. With or without a rationale for the sample size, staff
agreed that the adequacy of assessing licensee performance through the
baseline inspection program depends on the “quality” of the samples chosen
for inspection.

The agency draws conclusions about licensee performance in particular
baseline areas based on a relatively small number of samples which are not
randomly selected. According to the agency's statistician, it is acceptable to
preselect the samples in a risk-informed program provided plant-specific risk
knowledge is being used effectively by inspectors. However, he added that
the agency must be clear that the conclusions drawn pertain to the samples
taken and should not necessarily be projected to the whole population.
Without a documented basis for the sampling, the agency cannot determine
whether there is more (or less) inspection effort applied than necessary,
which impacts the agency’s use of its inspection resources and burden on the
NRC licensees. Additionally, NRC, the nuclear industry, and the public
cannot be assured that the agency’s justification and rationale for it's
sampling methodology is adequate to obtain sufficient inspection information
needed to assess the overall safety performance of power reactor licensees.

RECOMMENDATION

OIG recommends that the Executive Director for Operations (EDO):

1.     Document the basis and rationale for the determined baseline
       inspection program sample sizes, including a discussion of when, or
       why, to use more than minimum samples.


Operating Experience Program Needs Improvement

NRC made a commitment to use operating experience to maintain safety,
protect the environment, and promote the common defense and security.
However, over time the agency made changes in the amount and type of
operating experience data it collects and analyzes, most notably in the area
of human factors information. As a result, operating experience information
that may be critical to NRC’s understanding of risks at power plants is being
lost. Because this lost information may be important to focusing inspection
work in risk important areas and assisting inspectors in sample selections,
the agency should reconsider changes previously made to the program.




                               12
                                                                Audit of NRC’s Baseline Inspection Program

                    Historical Handling of Operating Experience at NRC

            NRC’s goal to maintain safety, protect the environment, and promote the
            common defense and security is the preeminent agency performance goal.
            Although NRC licensees continue to have the primary role in maintaining safe
            operation of the Nation’s commercial nuclear power plants, NRC states it will
            take action to improve safety performance before it falls below acceptable
            levels and will require plants to shutdown when their safety performance is
            unacceptable. This principle is inherent in the NRC's new ROP. Among the
            strategies NRC uses to achieve its performance goals is a commitment to
            evaluate operating experience and the results of risk assessments for safety
            implications.

            Operating experience6 is a broad term that has evolved to describe NRC and
            licensee evaluation and use of operational safety data. It has long been
            recognized that NRC’s systematic collection and evaluation of operating
            experience data is an important part of its mission to ensure that commercial
            nuclear power plants are operated in a safe manner. In fact, in July 1979, the
            Office of Analysis and Evaluation of Operational Data was created to:

            <       coordinate operational data collection;

            <       systematically analyze and evaluate operational experience;

            <       feed back the lessons of experience to improve the safety of licensed
                    operations;

            <       assess the effectiveness of the agency-wide program; and

            <       act as a focal point for interaction with outside organizations for
                    operational safety data analysis and evaluation.

            Also in 1979, the nuclear industry took action and created the Institute of
            Nuclear Power Operations, in part to provide an independent capability to
            evaluate operational experience and feed back lessons learned to licensees.

            In 1998, as a result of further study, the Commission approved the staff’s
            proposal for consolidating Office of Analysis and Evaluation of Operational
            Data functions into program offices. The Commission noted that these
            functions need to continue with a degree of independence. The




6
    Operating experience in this context includes a broad range of information about events and
    conditions at commercial nuclear power plants collected from a variety of sources, including
    but not limited to, Licensee Event Reports, 10 Code of Federal Regulations (CFR) 50.72
    notifications, 10 CFR Part 21 reports, component failure data, and inspection reports, as well
    as industry reports and foreign operating experience reports.
                                               13
                                                                Audit of NRC’s Baseline Inspection Program

            Commission also recognized the importance of sharing lessons learned from
            the independent assessments of operational events with the nuclear industry
            in an effort to improve the safety of licensed operations and to assess the
            effectiveness of agency-wide programs.

            In 2002, agency executives raised questions regarding the effectiveness of
            NRC’s operating experience program in the aftermath of a safety significant
            event at a U.S. nuclear power plant. In response, NRC formed a task force to
            evaluate the agency’s reactor operating experience program and to
            recommend specific program improvements. The task force’s November
            2003 final report7 cited an earlier agency finding that a number of specific
            NRC operating experience programs had been reduced in scope or
            eliminated following previous program evaluations, but the impact of those
            changes on the effectiveness of the operating experience program had not
            been systematically assessed. The task force report made 21
            recommendations for improvements to NRC’s operating experience program,
            including periodic assessments of the program’s effectiveness.

            Because of the extensive review performed by the task force, OIG limited its
            work in the operating experience area. However, due to the importance of
            operating experience to the baseline inspection program, OIG reviewed the
            task force’s report. OIG found that, if implemented, the recommendations
            presented will result in significant needed improvements to the operating
            experience program and improve inspection efforts. OIG published the
            results of its review of the task force report in a March 2004 memorandum
            report,8 which included six recommendations aimed at strengthening the task
            force’s recommendations to ensure that existing weaknesses are addressed.
            Additionally, OIG noted that human factors operating experience was one
            area not specifically addressed by the task force report. Therefore, during
            this audit, OIG placed a particular focus on this important feature of operating
            experience.

                    Loss of Human Performance Operating Experience Data

            Humans are integral to the safe operation of a nuclear power plant.
            Understanding that human performance and error contribute to the root
            causes that underlie performance problems in nuclear power plants, NRC
            established human performance as an ROP cross-cutting issue. An NRC-
            sponsored study on the risk impact of human performance in operating




7
    Memorandum from C. Ader, Manager, Operating Experience Task Force to the Task Force Steering
    Committee re: Reactor Operating Experience Task Force Report, dated November 26, 2003.
8
    Memorandum to W. Travers from S. Dingbaum, Memorandum Report: Review of NRC’s Reactor
    Operating Experience Task Force Report (OIG-04-A-13), dated March 30, 2004.

                                              14
                                                                      Audit of NRC’s Baseline Inspection Program

              events confirmed this position. Additional work documented how the ROP
              monitors, analyzes, and feeds back information on human performance and
              compares it to findings from the review of operating events.9

              The NRC-sponsored study concluded that, in general, the ROP is likely to
              capture important issues through a combination of baseline inspections,
              supplemental inspections, performance indicators, cornerstones, and
              cross-cutting issues and that the ROP identifies the same-type of human
              performance issues that were identified through analyses of operating
              events. The study resulted in a number of findings regarding the influence of
              human performance on the analyzed sample of 37 significant operating
              events, including the following ones considered most important to
              probabilistic risk assessment:

              C        Without exception, the 37 operating events included multiple
                       contributing factors. On average, the events contained four or more
                       human errors in combination with hardware failures. Fifty percent of
                       events contained five or more errors.

              C        Eliminating “no color findings10” because they are of low risk
                       significance may make current practices more objective but may
                       result in the unavailability of raw data if many human performance
                       insights individually fail to trigger the significance determination
                       process.

              C        Trending low safety significant problems and issues can potentially
                       indicate declining plant performance. Trends in human performance
                       below established thresholds may be an indicator that is predictive of
                       future systems performance.

              C        Human errors can likely result in failure of risk-significant equipment.




9
     NUREG/CR-6753, Review of Findings for Human Error Contribution to Risk in Operating Events, Date
     Published: March 2002 and NUREG/CR-6775, Human Performance Characterization in the Reactor
     Oversight Process, Date Published: September 2002. Both studies were conducted for NRC by the
     Idaho National Engineering and Environmental Laboratory.
10
     The Commission recognized that some issues should be documented even though they could not be
     evaluated under a specific cornerstone and its associated significance determination process. The ROP
     contemplated that substantive cross-cutting issues could be documented in inspection reports.
     According to NRR, inspectors can, and do, document these types of findings (formerly called “no-color
     findings”) but for clarity have given them a "green" color. IMC 0612 describes this type of finding and
     what is required for inspectors to be able to document them in NRC inspection reports.

                                                   15
                                                                       Audit of NRC’s Baseline Inspection Program

             C        Latent errors11 were present in every event and more predominant
                      than active errors.

             According to an NRC specialist in the correlation of human factors to
             performance problems at commercial nuclear power plants, in the time
             between the two sets of data discussed above the content of inspection
             reports was changed due in part to changes in the definition of the threshold
             for what constitutes a finding. As a result, the number of findings in
             inspection reports was reduced. Although cited as an important source of
             information about human performance, findings that are not greater than
             minor significance12 have been essentially eliminated from inspection reports,
             and thereby, unavailable for trending by agency analysts.

             Summary

             Research has established human performance as a significant factor in
             performance problems at commercial nuclear power plants. In fact, an NRC
             human factor’s specialist said that the agency’s preliminary review of recent
             information again shows the correlation between human error and poor
             performing plants to be positive with a range from +0.3 to +0.6 (on a scale of
             -1.0 to +1.0), and an average of +0.5. NRC awareness of human
             performance allows for informed decision making about changes that may be
             needed in NRC's inspection guidance and contributes to appropriate focusing
             of inspection activities for each plant. However, changes made to the
             threshold for inspection report content and a reduction in licensees’ event
             reporting requirements resulted in a decrease of NRC’s access to important
             operating experience information related to potential performance problems
             at commercial nuclear power plants. This reduces the staff’s ability to
             compile and evaluate human performance data in order to trend performance
             issues at the plants.

             RECOMMENDATION

             OIG recommends that the Executive Director for Operations:

             2.       Develop guidance on how to identify human performance trends and
                      how that information should be integrated into the reactor oversight
                      process.




11
     Latent errors are those committed pre-event but whose effects are not realized until the event occurs.
     Latent conditions can be present for long periods of time before combining with workplace factors,
     including active errors, to produce an event. Latent errors contributed most often to plant events and
     caused the greatest increases in plant risk.
12
     These types of findings were formally referred to as “no-color findings.”
                                                   16
                                                              Audit of NRC’s Baseline Inspection Program

         Agency Lacks Clear Guidance on Handling Informal Issues

         Informal issues are generally viewed as a very important part of NRC's
         inspection effort and, as such, NRC managers and the inspection manual
         encourage inspectors to discuss this information with licensees. However, as
         noted in a 2002 OIG audit report related to the reactor oversight process,13
         NRC had not developed written guidance for informal issues. That remains
         the case today. Individual regions have provided some guidance about the
         handling of informal issues and several managers stated they provide verbal
         guidance to inspectors. However, such instruction may be inconsistent and
         management expectations are not clear. This results in an important part of
         the inspection program being implemented inconsistently. Important
         information about plant operations can be lost because of inconsistent or
         non-existent documentation. As a result, NRC could miss opportunities to
         identify declining plant performance and the public has no access to
         information on informal issues considered important to inspectors.

                 Management Accountability and Control

         According to Office of Management and Budget (OMB) Circular No. A-123,
         Management Accountability and Control, agency managers are encouraged
         to continuously monitor and improve the effectiveness of management
         controls associated with their programs. Clear guidance helps to ensure
         effective and efficient use of valuable agency resources and consistent
         regulation of NRC licensees.

                 Agency Guidance

         NRC has an established policy regarding the threshold by which inspection
         findings are considered significant. IMC 2515 also (1) provides guidance for
         its inspectors on inspection report content and (2) conveys that licensees
         desire to hear inspector insights, even in instances where the insights do not
         reach the threshold for documentation in inspection reports. Staff clarified
         that this type of information, typically called “inspector observations” or
         “informal issues,” relates to issues that inspectors see as a concern or about
         which they want a licensee to know, but do not meet the threshold for
         inclusion in inspection reports. Because such information falls below the
         prescribed threshold, IMC 2515 does not provide guidance regarding the
         handling of informal inspection issues. Nevertheless, varying levels of
         attention are being spent by agency managers and inspectors on informal
         issues.

         NRC inspectors document violations of NRC regulations (findings) in
         inspection reports. But, inspectors also identify other informal issues
         regarding plant operations which are included with “no-color findings” which
         typically get eliminated from inspection reports. NRC and licensee officials
         stated that they view informal issues as very important to improving plant


13
     OIG Report 02-A-15, Review of NRC’s Significance Determination Process, dated August 21, 2002.
                                            17
                                              Audit of NRC’s Baseline Inspection Program

operations. In fact, inspectors are encouraged to bring informal concerns
about plant operations to licensee management, but these concerns cannot
be included in inspection reports because they fall below a defined threshold
of importance. Despite the importance and widespread use of informal
issues, NRC has not provided adequate guidance because cognizant senior
managers believe that issues which fall below the threshold for inclusion in
inspection reports do not require formal guidance. As a result, the handling
of informal issues has been inconsistent.

NRC inspectors regularly discuss informal issues with licensee officials and
with NRC managers. Many NRC inspectors and managers believe in the
importance of these informal issues, specifically that they can prevent future
violations. In order to ensure licensees resolve the “informal” concerns
properly, most inspectors and some region managers track these issues. In
fact, most of the inspectors and many of the managers interviewed said a
“second set of books” is kept which captures this information. In addition,
some inspectors and managers analyze informal issues to identify trends that
could reflect potential problem areas at plants. For example:

<      An NRC inspector performing a Health Physics inspection discussed
       a specific situation with the licensee who then put the concern into its
       corrective action program. However, this issue won’t be in an NRC
       inspection report because it does not meet the criteria for inclusion.
       According to the inspector, if he had not seen the situation and
       mentioned it, the result would have been a violation. The significance
       was minor -- there was no violation, but there would have been a
       violation if not identified by the inspector.

<      According to one NRC manager's informal tracking system, an
       inspector recognized many examples where the licensee had not
       identified the appropriate equipment to be protected during various
       maintenance activities. The issues were discussed with the licensee
       who was very appreciative and intended to issue a general
       communication about the problem.

       Licensees Encourage Information Exchange

Licensee officials stated that they appreciate NRC inspectors bringing
informal issues to their attention and that they take action to correct the
issues in virtually all cases. Many licensee officials viewed discussion of
informal issues as being proactive and predictive of potential performance
problems at their plants. In fact, several officials viewed informal issues as
more important to improving plant operations than formal inspection findings
in NRC inspection reports. Some of the licensees said they would not have a
problem with NRC capturing informal issues in the formal inspection reports,
as long as the issues are appropriately characterized.




                              18
                                             Audit of NRC’s Baseline Inspection Program

       Inconsistencies in Implementation and Expectations

During this audit, OIG informed NRR and region managers about
inconsistencies related to handling informal issues. For example, some
region managers specifically tell their inspectors not to document or track
informal issues while others have developed elaborate tracking systems and
encourage their staff to keep records. OIG also found that, despite not
meeting threshold requirements, one region actually documents discussion of
minor, “informal” issues in their formal baseline inspection reports.

Given their awareness that inspectors and/or managers are developing
tracking systems and spending time collecting and documenting informal
issues, OIG asked why NRR has not issued guidance or communicated
expectations related to handling informal issues. One NRR senior executive
said that when he asked staff about the handling of informal issues, he was
repeatedly told that the ROP would eventually deal with the issue. But,
according to staff who have a vested interest in the development of the ROP,
the topic has yet to be discussed because of the relative newness of the
ROP.

In disagreement that the ROP, after four years, is too new, a number of
agency senior managers expressed that it is an appropriate time to do a
critical reassessment of the ROP, including the handling of less than
reportable issues. According to one cognizant manager, it is important to
look at the issue now to answer the primary question of "how much effort
should be put into these minor things?" He acknowledged that some of the
minor issues discussed between inspectors and licensee staff would be
considered operating experience, albeit specific to an individual plant. But,
that operating experience will not get captured on the operating experience
websites if the issue does not meet the risk significance threshold, and may
or may not get shared with other inspectors. In his opinion, NRR will have to
look at the resources already expended on informal issue tracking systems in
each region and get each region's expectations before deciding on what
further guidance is needed. Despite the existence of guidance in the agency
inspection manual regarding thresholds, this important part of the inspection
program continues to be inconsistently implemented.

In the finding titled, Operating Experience Program Needs Improvements,
OIG noted that potentially important information about operating experience
was no longer documented and preserved in NRC inspection reports.
Because there is no continuity in how informal data is captured or shared,
important information about plant operations which could help inspectors pick
“smart” samples could be lost. As a result, NRC could miss information
critical to NRC’s understanding of risk and identification of declining plant
performance (trends).




                              19
                                                Audit of NRC’s Baseline Inspection Program

       Certain Information Not Publicly-Available

One of the agency’s goals is to increase public confidence through open
communications. Typically, the public should have access to enough
information to understand how the agency makes decisions, including its
annual rating of a licensee’s performance. However, informal issues and
inspector observations are typically shared with licensees during informal in-
plant discussions or before/after formal inspection exit meetings. Therefore,
the public is not privy to certain information regarding licensee performance.
As a result, there may not be enough documentation in inspection reports to
gain public confidence on NRC’s assessment of licensee performance.

According to one senior manager, the baseline inspection program produces
two levels of information: formal inspection findings which are documented in
the reports, and a second tier of informal observations and minor issues
which do not rise to the threshold for inclusion in the reports. He thinks that if
the inspectors (or their management) think any of the "minor" issues might
need follow-up, that information should probably be documented somewhere,
but he is not sure the public needs to be aware of it. The questions of where
informal issues should be documented and to what the public should have
access need to be answered.

Summary

NRR management is aware of the inconsistencies related to the documenting
and sharing of informal/minor issue information. NRR is also aware that the
public is not privy to a lot of the informal issue information shared with
licensee staff during exit meetings and through other informal discussions,
even though some of this information would be considered operating
experience. NRR managers recognize the need to address this issue, but
before deciding on what guidance is needed, NRR must determine:

<      how much effort should be put into "these minor things,"

<      what resources are already being used in each region,

<      what are each region's expectations regarding internal use, and

<      what information should be documented for public view (e.g., in
       inspection reports).

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

3.     Develop and implement guidance for documenting, tracking, and
       trending informal inspection issues.



                                20
                                               Audit of NRC’s Baseline Inspection Program

Performance Measures Need Improvement

NRC’s methodology for reviewing the success of the baseline inspection
program is generally sound. However, although baseline inspections are
used to assess whether plants are safely operated, the agency does not have
performance measures which adequately assess the quality of those
inspections or define “effectiveness” of the program.

Guidance from the agency and OMB states that the “effectiveness” of a
program must be measured. Performance measures established in NRR's
Operating Plan for the baseline inspection program do not meet the intent of
guidance because there is no method established to measure
“effectiveness.” An NRC group previously identified the lack of a definition or
method to measure effectiveness as a weakness in the agency’s ability to
assess a program’s success, in this case, the baseline inspection program.
In addition, the agency lacks a metric regarding the “quality” of its baseline
inspections. Without such measures, the agency cannot adequately evaluate
the effectiveness of baseline procedures nor the quality of the inspection
program itself. As a result, NRC cannot be assured that the baseline
inspection program is adequately contributing to the agency's mission and,
therefore, the Commission does not get a reliable annual assessment of
overall ROP effectiveness.

       Performance Goals and Measurement System

A primary objective of the ROP is to help fulfill the agency’s performance
goals, including efficiency and effectiveness of its activities. A performance
measurement system is a process organizations use to collect data, prepare
performance measurements, analyze performance, and report on and use
the results. Those measures should reflect and align with the mission of the
agency, identify expected outputs, identify what aspect of performance needs
measuring, and establish performance goals or targets. Outputs include
measurable characteristics of program activities such as effectiveness,
efficiency, and quality. (For a detailed description of performance and output
measures, see Appendix B.)

       Guidance Requires Measure of Effectiveness

Guidance from the Office of the Executive Director for Operations’ states:

       A major area targeted for improvement in the FY 1999
       operating plans is the establishment of effectiveness metrics.
       All other metrics are superfluous if the program is not
       achieving its desired results or outcome. Effectiveness is also
       at the heart of self assessment. Therefore, effectiveness
       metrics are a required element for the FY 1999 operating
       plans.



                               21
                                                                    Audit of NRC’s Baseline Inspection Program

              As early as October 1998, NRC established guidelines for internal output
              measures for Planned Accomplishments.14 A model was provided which
              suggested establishing metrics for:

              ‘       effectiveness [the accomplishment of the desired result]

              ‘       efficiency [accomplishing the desired result without wasting
                      resources]

              ‘       quality [degree of excellence]

              ‘       quantity [how many]

              ‘       timeliness [performance of the activity within defined milestones]

              For the baseline inspection program, there is one Planned Accomplishment
              Code, #103-140 - Baseline Inspections. NRC offices were required to
              establish, at a minimum, an effectiveness metric at the Planned
              Accomplishment level if there were no performance plan output measures for
              that accomplishment. In fact, for the period subject to this review, there was
              no performance plan output measure specifically defined for effectiveness in
              the baseline inspection program.

              In the President’s budget for FY 2004, OMB describes its initiative to
              implement performance budgeting throughout the Federal government in
              2005 by using “effectiveness” at influencing outcomes as a justification for
              resources.15 As OMB describes for budgeting purposes, NRC must link the
              performance of day-to-day activities, like baseline inspections, to long-term,
              higher level performance goals in order to build a solid foundation for
              managing program performance and achieving performance and strategic
              goals.

                      Measure of Effectiveness Absent from Agency Plans

              NRC’s Strategic Plan presents strategic goals which are consistent with its
              mission and supported by performance goals. The performance goals
              represent outcomes the NRC plans to achieve. NRC’s FY 2004-2009
              Strategic Plan, Performance Goal 116 is Ensure protection of public health
              and safety and the environment. There are several performance or outcome
              measures associated with this goal which need improvement. For example,
              in accordance with OMB’s guidance, one of NRR’s Operating Plan
              performance measurements asks, “What is the tangible contribution to the


14
     NRC defines a Planned Accomplishment as a level of discrete activity below the program level, where
     FTE and budgetary resources can be identified.
15
     OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget, revised July 2004.
16
     NUREG-1614, Vol. 3., U.S. Nuclear Regulatory Commission Strategic Plan FY 2004-FY 2009, dated
     August 2004.
                                                  22
                                                               Audit of NRC’s Baseline Inspection Program

            outcome goals... in the core activity from doing this work. (What will success
            look like or what will we measure to know that this activity was successful?
            How do baseline inspections contribute tangibly to the agency’s outcome
            goals?)” NRR’s answer does not provide specific quantitative terms for
            measuring the baseline inspection program’s tangible contribution to the
            outcome goals, nor does it describe what should be measured to know that
            baseline inspections were effective.

            At the operational level, management should include, when possible,
            measures for each of the performance categories; effectiveness, efficiency,
            quality, quantity, and timeliness. It is important to have clear drivers or
            targets in each area to ensure the program effort is not “pushed” in any one
            direction at the expense of others. Specifically, the NRR FY 2004 Operating
            Plan describes the planning, budgeting, and performance management
            process as implemented by NRR. The process is directed toward achieving
            organizational effectiveness by measuring and monitoring performance
            against measures and targets, and assessing performance.

            The Operating Plan defines success for all planned accomplishments and
            includes planning templates for each accomplishment discussed in the plan.
            Each template establishes the measures of success and targets for NRR
            management. OIG reviewed the baseline inspection program's performance
            measures and targets and found there are no metrics established to
            adequately measure effectiveness or quality. Appendix C presents a table of
            OIG's evaluation of the specific leadership and operational performance
            measures and targets. In addition, other inconsistencies were found in the
            baseline inspection program which are fully discussed in Appendix B. If
            inconsistences are not addressed, performance measures and targets may
            not be developed in alignment with program objectives.

                    Efficiency Focus Group

            In 2002, an agency Efficiency Focus Group looked for ways to improve
            resource efficiencies in the ROP and concluded that there could be no
            comprehensive assessment of the effectiveness of the baseline inspection
            procedures until “effectiveness” was defined. The focus group recognized
            that, aside from the number and significance of inspection findings, there are
            a number of less tangible effects of inspections that will be difficult to
            measure directly. The focus group also noted that IMC 0307, Reactor
            Oversight Process Self-Assessment Program,17 which was then under
            development, would require an annual review of the “effectiveness” of
            baseline inspection procedures. The focus group recommended that




17
     IMC 0307, Reactor Oversight Process Self-Assessment Program, dated December 12, 2003.

                                              23
                                                                    Audit of NRC’s Baseline Inspection Program

            measures be developed once “effectiveness” is defined so that an
            assessment could be made. However, the group did not attempt to define
            “effectiveness.”

                     Incomplete Annual Review of Baseline Inspection Procedures

            Subsequent to the Efficiency Focus Group’s comments, IMC 0307 was
            issued and currently requires certain staff, called inspectable area leads,18 to
            monitor and report annually on the effectiveness and efficiency of inspection
            activities and program objectives within their assigned areas of responsibility.
            One of the primary objectives of this annual review is a critical ‘big picture’
            evaluation of “all of the inspectable areas together to justify retaining them in
            the baseline inspection program, or determine if the addition of a new
            inspectable area is warranted.”

            In accordance with IMC 0307, multiple inspectable area leads19 recently
            completed the CY 2003 annual review of their assigned baseline
            procedures.20 As with previous reviews, they did not identify the need for any
            significant changes to the overall inspection program (e.g., either the addition
            or removal of inspection procedures). In fact, the staff mainly recommended
            minor adjustments or “tweaks” to levels of effort (i.e., hours), clarification of
            the definition of a sample, or how many samples constitutes completion for
            procedures that received any revision. However, there is no evidence that
            the required ‘big picture’ review was conducted or, according to many senior
            officials, that operating experience is being incorporated into changes to
            inspection procedures as anticipated.

            As noted by the focus group and as seen in the NRR Operating Plan,
            references to “effectiveness” appear in individual inspection procedures. Yet
            the agency has not defined what effectiveness means for the baseline
            inspection program. As a result, the agency cannot properly evaluate the
            effectiveness of the procedures, and thereby, the program. When senior
            NRR executives were asked why there was no definition of “effectiveness,”
            one said this issue has been on his radar because he too realized the
            “effectiveness” of the baseline inspection program had never been measured.
            Another said that interim graded measures will be put into effect as a first
            step, but NRR needs to get closer correlation between its operating plan and
            NRC’s strategic goals.




18
     An “inspectable area lead” is a Division of Inspection Program Management, NRR, staff member
     assigned responsibility to oversee and manage the use of individual baseline inspection procedures or
     attachments to those procedures.
19
     For CY 2003, there were approximately 11 different NRR staff members serving as individual area
     leads.
20
     The annual review did not include the physical protection procedures which were covered under a
     current NRC temporary instruction.
                                                 24
                                                      Audit of NRC’s Baseline Inspection Program

              Lack of “Quality” Measures in the Baseline Inspection Program

       In addition to effectiveness, appropriate “quality” measures should be
       developed. Monitoring only the other types of measures and targets can
       drive performance in another direction at the expense of quality. For
       example, there is no measure showing whether inspectors do quality
       inspection work, a critical component of baseline inspection program
       success. Such a measure might, for example, reflect the quality of inspection
       samples chosen.

       IMC 0307 also includes the inspection program metrics used in the annual
       ROP self-assessment. There are 11 inspection program metrics in IMC 0307
       which go beyond those in the Operating Plan. However, IMC 0307 also has
       no measures of effectiveness or quality.

       Summary

       The existing measures and targets for the baseline inspection program
       capture some important aspects of program activity and provide some useful
       information to managers. However, management has not adhered to
       performance measure requirements in that critical types of measures are
       missing. Specifically, the existing measures and targets do not reflect the
       most important aspects of evaluating the activity — effectiveness and quality.
       Without such measures, agency managers cannot adequately evaluate the
       effectiveness of baseline procedures nor the inspection program itself.
       Managers also cannot use the existing performance information to most
       effectively manage resources and ensure optimal performance in attaining
       the agency’s goals. As a result, NRC cannot be assured that the baseline
       inspection program is effectively contributing to the agency's mission.

       RECOMMENDATION

       OIG recommends that the Executive Director for Operations:

       4.     Define “effectiveness” as it pertains to the ROP and establish
              performance measures and targets to demonstrate that the baseline
              inspection program meets that definition.


B. IMPACTS ON THE BASELINE INSPECTION PROGRAM FROM RESOURCE
CHALLENGES ARE LIKELY TO CONTINUE

       NRC must allocate adequate, qualified staff to achieve desired program
       outcomes. Over the last two years, NRC has faced numerous challenges to
       completing the baseline inspection program. According to senior staff, the
       primary cause for the current challenges began with a change to the
       inspector staffing policy. Although OIG’s analysis did not support that belief,
       a number of other tangible factors impact the agency’s ability to carry out the
       baseline inspection program. Specific challenges include: a hiring policy

                                      25
                                                                       Audit of NRC’s Baseline Inspection Program

             change, an increase in supplemental inspections, a loss of qualified
             inspectors, and diversion of inspectors from baseline activities. In response
             to these challenges, the agency instituted coping strategies including
             changing its expectations for completing the baseline inspection program
             from a nominal to a minimum level of effort. While NRC appears to be
             addressing these challenges, they persist today and undesirable “short term”
             coping measures are still in place. Because these challenges significantly
             impact a critical agency program, it is imperative that continual senior
             management attention be given to the possible negative impacts of the long-
             term use of short term coping strategies.

             The Move from N+1 to N

             In a memorandum dated January 11, 2000, the Commission approved a
             revision to the inspector staffing policy to reduce the number of resident
             inspectors at operating commercial nuclear power plants having multiple
             units on site from “N+1" (i.e., the number of units plus one additional
             inspector) to “N” (an equal number of inspectors to units at a site).21 The
             change was temporary pending completion of an impact study due in June
             2001. The June study concluded that baseline inspections could be
             accomplished by "N" resident inspectors with some assistance from region-
             based inspectors. As a result, the staffing reduction at plant sites was
             continued, but the staff proposed the development of criteria for the allocation
             of additional inspection resources for other than performance-related issues
             (e.g., unique design or organization features).

                      Staffing Policy Changes

             Many agency managers and inspectors assert that the challenges to
             completing the baseline inspection program began with the change in staffing
             from N+1 to N. Using time charges for CY 2002, OIG tested this theory and
             found no evidence that hours allocated for completion of the baseline
             inspection program are inadequate. To justify an argument for a return to
             N+1 staffing at all plants, analysis should show that significantly more than
             two FTE (i.e., closer to three FTE) are needed to complete resident
             inspector-performed baseline inspection procedures at plant sites. To the
             contrary, the data indicates it took fewer than two FTE to complete the
             program, including assistance provided by other NRR staff. Even on a plant-
             specific basis, no plant in CY 2002 required enough FTE to justify a return to
             N+1 in order to complete the routine baseline inspection program.
             Additionally, a rough estimate of travel costs related to providing inspector
             assistance to sites provided no support for a return to N+1. (OIG notes that
             over the last three years, the agency has granted approval for at least three
             plants to return to the N+1 policy due to unique unit designs or performance
             issues.)

             An alternative argument could be that challenges will persist and that an


21
     The revised policy did not impact single unit sites which continued to require two resident inspectors.
                                                   26
                                                Audit of NRC’s Baseline Inspection Program

additional inspector at plant sites would relieve the burden of applying coping
strategies to deal with existing resource challenges. However, OIG’s
analysis shows that any additional FTE would be better positioned at the
regions because the additional coverage needed to complete resident
inspector-performed inspections at plant sites is far less than one FTE.

Analysis shows that, if there are two full-time resident inspectors at each
plant site, as required, baseline inspection procedures can be completed at
the minimum level. Interviews with resident inspectors support the position
that there is more than sufficient time for the baseline inspection program
with the caveat that inspectors are not continually diverted to other activities
(such as, temporary instruction inspections, allegations, and enforcement
activities).

Challenges to Completing the Baseline Inspection Program

NRC revised its personnel policy for FY 2002 regarding new hires. According
to agency documents, the revision called for one of every four (25 percent)
new hires to be entry level, “recent [college] graduates.” Therefore, the new
hires will have little to no field inspection experience. As one senior manager
said, having such a policy will continue to place a burden on qualified
inspectors because it takes new hires approximately two years to process
into fully qualified inspectors. Additionally, the agency notes that it should be
recognized that “any” new inspector, including those with extensive field
experience, requires some time to understand the NRC’s regulatory role and
management expectations for professionalism in the conduct of inspector
functions. According to NRC, the average time to qualify experienced
personnel is one year.

In a July 2002 memorandum to the regions, NRR discussed challenges faced
by the regions to complete the baseline inspection program. These
challenges included an unexpected increase in supplemental inspections, the
loss of qualified inspectors, and diversion of inspectors to other initiatives.
Multiple “coping measures” were provided for consideration, including:

<      deferral of biennial/triennial inspections,

<      increased use of inspectors qualified at the "basic" level,

<      delay of personnel moves,

<      deferral of non-required training, and

<      utilizing the minimum sample size in each inspectable area.

Responses from the regions to headquarters identified the possible negative
impacts of the proposed coping strategies, especially those associated with
reducing the target sample size to minimum (low end) at most plants. For
example, a Deputy Regional Administrator reported that it would be difficult to
judge what effects the across-the-board reduction in samples would have
                                27
                                                Audit of NRC’s Baseline Inspection Program

(e.g., what problems might be missed, if any) from the reduced effort. He
contended that if done year-after-year, it would erode the agency's ability to
obtain adequate indications of licensee performance and to identify risk-
significant issues. In his words, there was a need to recognize "one-time
compromises as just that — measures not suitable for repetition."

Although all four NRC regions were challenged to complete the baseline
inspection program in CY 2002, two regions were particularly hard pressed
which led to a change in intended performance. For example, one region
intended to continue with nominal sample sizes at six nuclear plants due to
poor performance. Resource shortages eventually led that region to reduce
its level of inspection effort at those six plants and to implement the minimum
level of effort at its other assigned plants. In addition, the subject region had
to request 13 weeks of inspection assistance to meet the minimum
completion requirements. A second region was extremely challenged by a
shortage of staff and fully-qualified inspectors, increased supplemental and
special inspections, and diversionary activities involving problem plants. In
fact, that region requested 46 weeks of inspection assistance to complete the
minimum level baseline inspection program.

In order to provide assistance to the regions in need, another region
implemented most of the proposed coping measures, particularly the
reduction of inspection effort to minimum levels at all its assigned plants. In
that case, poor performance and risk did not impact the decision to reduce
the level of effort to the minimum; instead it was based on resource
shortages. Nevertheless, in a memorandum to staff regarding management
expectations for the CY 2002 cycle, a region branch chief said the intent and
scope of the inspection procedures was to be met and that “a reduction in
samples and hours does NOT mean you should select the easiest or least
time consuming sample.”

       End of CY 2002 Cycle Realizations

In a December 2002 memorandum, headquarters conceded that a number of
unanticipated events occurred during the CY 2002 cycle that would continue
to impact the baseline inspection program through CY 2003. The four
regions responded to the headquarters memo with similar messages;
specifically, that they were only able to complete the CY 2002 cycle by
implementing coping strategies. As stated in a region memorandum,
completion in CY 2002 required "a number of less-than-desirable" coping
measures that would need to extend into CY 2003 due to anticipated
continued shortfalls of inspection resources (from an FTE or technical skill
perspective).




                               28
                                                 Audit of NRC’s Baseline Inspection Program

       Agency Attempts to Address Challenges

In an effort to alleviate some of the challenges to complete the baseline
inspection program in CY 2003, the agency took a number of actions, most
notably, double-encumbering of inspector positions, continuation of the
minimum level of inspection effort, and the identification of former inspectors
available from headquarters to assist with baseline inspections.

       Double-encumbering

IMC 2515 was revised in April 2003 to give regional administrators the
authority to "double encumber" the resident and senior resident inspector
positions at operating commercial nuclear power plants. This limited "early
reassignment" was expected to minimize the number and duration of gaps in
inspector assignments and site coverage due to personnel changes. The
new policy allows for assignment of a permanent resident inspector up to 12
months before the planned departure of the incumbent and 6 months for
senior resident inspectors. NRR appropriately cautioned the regions that
close management be exercised to ensure that resources expended to
complete the baseline inspection program were not increased solely as a
result of the additional inspectors on site.

In practice, double-encumbering is only effective when there is advance
notice of a proposed vacancy. However, according to NRR, resident
vacancies frequently occur with little notice. For example, an inspector
leaving for a promotion may give only two weeks notice. As a result, there is
little opportunity for the regions to implement double-encumbering to address
gaps in resident vacancies and, thereby, assist in completing the baseline
inspection program.

       Continuation of Minimum Level of Effort

In a May 2003 memorandum to the regions, NRR established guidance for
completion of the CY 2003 baseline inspection program stating that
completion of the minimum baseline inspection program is a "fundamental
annual objective in support of the [NRC] strategic goal of maintaining safety."
To ensure the program could be completed, NRR specifically requested the
four regions to perform only the minimum samples, wherever possible, based
on the safety performance at each plant. Headquarters recognized that
some inspectors believed that more than the minimum was warranted at
some plants but cautioned that any additional inspection effort should be
"judiciously applied and focused in those specific areas only where needed."
In addition, headquarters requested the regions to continue with similar
coping measures to those employed during CY 2002.

In response, two regions again identified a need for assistance to complete
the minimum baseline inspection program primarily due to a shortage of
qualified inspectors and diversion of inspectors to non-baseline activities.
Despite applying numerous coping strategies (e.g., reduced preparation and
documentation effort, deferred training, delay of “full” inspector qualifications),
                                29
                                                Audit of NRC’s Baseline Inspection Program

these regions projected a need for between 43 and 120 weeks of outside
assistance to complete the minimum baseline requirements. Both regions
stated a preference for individuals with full or previous qualifications and
those with knowledge of the ROP.

       Identification of Former Inspectors

Headquarters responded to the regions’ requests for assistance by providing
a chart of former and current-certified inspectors (currently in positions within
NRR) and what level of qualification they retained. NRR intended that these
individuals would provide help in completing baseline inspection programs
where needed. However, some of the identified inspectors were qualified at
only the “basic” level. The use of “basic” qualified inspectors helps the
agency meet the criteria for site coverage, but the practice places an extra
burden on senior resident inspectors because headquarters instructed that
inspectors having “basic” certification could only inspect under “close
supervision.” Therefore, there is not a 1-for-1 payback from this type
assistance because “basic” certified inspectors cannot independently conduct
baseline inspections.

Commission notified of impediments to completing the program

In the last quarter of the CY 2003 inspection cycle, the EDO notified the
Commission that the loss and shifting of resources impacted the agency's
ability to have two qualified resident inspectors at each site. As a result,
upon evaluation of inspection resource challenges in future years, the FY
2004-2006 regional budget for plant specific inspection activities was
increased by 15 FTE over the FY 2003 budget. The EDO anticipates that this
additional regional FTE will alleviate resource challenges once the new staff
become a pool of fully qualified inspectors who can relieve resident
inspectors from diversionary activities, such as assisting in supplemental
inspections. However, filling the new positions may prove difficult given the
agency’s recent experiences with the inability to retain the existing
inspectors. For example, 27 of the 74 resident inspector positions were
vacant at some point during CY 2003 and 14 senior resident inspectors left
the program in CY 2003 for various reasons, including promotions,
reassignments, and retirement. In addition, the full benefit of the new FTE
will not be realized until they are fully qualified as inspectors which takes
approximately two years.

Summary

The regions experienced numerous resource challenges in completing the
baseline inspection program in CYs 2002 and 2003. Coping strategies,
encouraged by headquarters in CY 2002 as one-time measures, continued in
CY 2003. The agency anticipated some relief to the resource challenges by
allowing more flexibility in use of "basic" qualified inspectors and early
assignment of new resident inspectors. Yet the value of both measures was
limited because there is not a 1-for-1 payback in conducting and completing
baseline inspection procedures using “basic” qualified inspectors and there is
                               30
                                                        Audit of NRC’s Baseline Inspection Program

       little opportunity to implement the double-encumbering policy.

       The agency anticipates that the allocation of an additional 15 FTE to
       inspection activities will alleviate some future problems in meeting the
       baseline inspection program by relieving resident inspectors of diversionary
       activities. But, the full benefit of a new, fully qualified inspection FTE will not
       be realized for at least 18-24 months after those positions are filled. Because
       regions have had a difficult time keeping vacancies filled, despite aggressive
       recruiting, challenges will likely persist until FY 2006. The persistent use of
       coping strategies and continual shifting of resources that results from the
       shortages warrants close management attention. Without sufficient
       management oversight, pressure on completing the program could, among
       other things, result in:

       S inspector “burnout,”

       S delayed inspector qualifications (which continues the burden on fully
         qualified staff),

       S choosing easier rather than “smart” samples to meet the minimum
         program, and

       S deferrals of biennial and triennial inspections to sometime later in the
         required time frame (which could, according to a region senior executive,
         result in some areas going nearly four or six years before being
         inspected).

       OIG notes that the actual resources needed for completion cannot be
       determined until the size of the program is established and justified.

       RECOMMENDATION

       OIG recommends that the Executive Director for Operations:

       5.     Develop a planned, scheduled approach for phasing out the use of
              the coping measures.


C. THE RESIDENT INSPECTOR TRAINING PROGRAM NEEDS IMPROVEMENT

       NRC requires specific training for baseline inspection program inspectors and
       there is a comprehensive inspector training program in place. However,
       there is room for improvement. Specifically, (1) inspectors are occasionally
       required to inspect areas outside of their comfort zone, (2) inspectors are
       occasionally assigned to plants outside their specific training, and (3) there is
       no requirement for inspectors to receive vendor-specific training. As a result,
       the agency may not be maximizing the efficiency and effectiveness of its
       resident inspectors and those inspectors may miss opportunities to identify
       performance problems.

                                       31
                                                           Audit of NRC’s Baseline Inspection Program



                                    Background

                                   IMC 1245 defines the training requirements for NRC
                                   inspectors. The objective of the program is to ensure
                                   that NRC staff have the knowledge and skills necessary
                                   to successfully implement the agency’s inspection
                                   programs, including the baseline inspection program.
                                   According to guidance, inspectors must understand the
                                   facilities, equipment, processes and activities of the
                                   program, as well as the criteria, techniques, and
                                   mechanics of implementing the program.
    Inspector at work
(Photo courtesy of NRC Website)


            There are two levels of inspector qualifications: “Basic” and “Full.” A Basic
            Inspector Certification allows an inspector to perform limited scope inspection
            activities under an appropriate degree of detailed supervision (from fully
            qualified inspectors). Fully qualified inspectors can independently perform
            the full scope of inspection activities with only routine oversight and
            supervision.

            Every inspector is expected to understand the technology associated with
            their assigned plant and apply concepts in various technical areas to allow
            the NRC to carry out its overall responsibilities. Inspectors need to develop
            and maintain an understanding of how basic nuclear plant design and
            operations provide for protection of public health and safety, and use
            knowledge of a specific reactor type to identify, address, and resolve
            regulatory issues. In order to receive “full” certification as a resident
            inspector, staff are required to take a Reactor Full Series course for one
            nuclear technology — either boiling-water reactors (BWR) or pressurized-
            water reactors (PWR).

                        Inspector Assignments

            The agency’s intent is that inspectors will be assigned to plants which match
            the training they have received due to significant differences between the
            nuclear technologies. In fact, the majority of resident inspectors have had the
            technology training for their assigned plants, as intended. However, there
            are at least six instances where an inspector is mismatched to the technology
            at the plant to which they are assigned, four of which are senior resident
            inspector assignments. For example, a permanently assigned resident
            inspector had not received technology series training; a reactor engineer on a
            6-month rotation as a resident inspector at a BWR plant had not taken the
            BWR simulator training class; and the senior resident inspector at a PWR
            plant is a BWR-trained inspector.




                                            32
                                                Audit of NRC’s Baseline Inspection Program

Resident inspectors are required to have a general knowledge of plant
operations and systems in order to perform baseline inspections. However,
there are a number of baseline inspection procedures, in areas such as
radiation health and physical security protection, that require or suggest
performance by specialists (e.g., inspectable area experts). Because of
shortages of qualified staff, resident inspectors have been tasked with
performing more of these types of specialized inspections.

OIG asked more than 20 resident and senior resident inspectors if they felt
“fully qualified to perform all inspection procedures required of your position?”
Overall, the inspectors responded that they are comfortable that they
possess the knowledge and qualifications to perform required inspections.
However, nearly half of the inspectors identified at least one area where their
level of comfort could be improved. Five areas, in particular, were cited by
multiple resident inspectors where inspections should more appropriately be
performed by specialists: fire protection, diesel generators, physical security,
motor-operated valves, and inspections related to the Temporary Instruction
on lower reactor vessel heads. OIG is aware of at least one occurrence
where an inspector asked management for expert help to review a situation
within one of the five areas identified above, but outside that inspector’s area
of expertise. The inspector was told that a shortage of resources would
prevent getting the requested assistance. The inspector was tasked, and
agreed, to do the review, but documented the level of discomfort.

       Vendor-specific Differences

There are multiple vendors for PWRs (e.g., Westinghouse, Babcock &
Wilcox, and Combustion Engineering) and multiple vintages of BWRs (e.g.,
General Electric (GE) 2 through 6). Agency training experts attest that there
are not only significant differences between technologies, but also between
specific vendors and models within the same technology. Yet, there is no
requirement for inspectors to receive specific vendor training because there
is a presumption that all PWRs and all BWRs are basically alike. Without
having vendor-specific knowledge, inspectors, especially those with less
experience in the field, could miss opportunities to recognize degraded utility
performance and safety issues.

There are numerous inspectors currently assigned to plants built by vendors
other than those for which they have received training. It is realistic to
conclude that those numbers will increase as the shortage of qualified
inspectors continues. In particular is a situation identified at one commercial
nuclear power plant where, according to cognizant staff, there was a
complete turnover of the NRC inspection staff at the plant, resulting in a full
complement of new inspectors. At the time of their assignments, none were
trained in the appropriate vendor-specific technology. Because the once-per-
year training course for this technology was full, it was possible that the




                               33
                                                 Audit of NRC’s Baseline Inspection Program

three new inspectors would not get the needed training for more than a year.
(OIG notes that region management did get two of the three inspectors into
the course in April 2004 — more than six months after being assigned.)

When the agency’s 17 technical instructors were asked by OIG whether
resident inspectors should have vendor-specific training for the plants where
they are assigned, 15 of the 16 respondents answered “yes.” The instructors
presented compelling arguments to support that vendor-specific training
would benefit the inspection program. Examples of instructor comments
follow:

‚ All PWR vendors use different features, like rod movement, so an
  inspector would need vendor-specific training to effectively evaluate a
  utility’s performance.

‚ An inspector trained on a plant design different from that where he/she is
  assigned would be insufficiently familiar with the assigned plant or would
  potentially have to perform a great deal of additional research to develop,
  understand, or assess findings in areas for which there are no
  counterparts in the plant design for which he/she received training. This
  situation is not as efficient or effective as a course specifically targeted to
  teaching the specifics prior to assignment.

‚ The GE design is significantly different from the Westinghouse,
  Combustion Engineering and Babcock & Wilcox design so training would
  be very important to someone with no experience in the GE design.

‚ Vendor-specific training would enhance the inspectors’ ability to provide an
  informed, independent assessment of dynamic plant conditions during an
  event.

One instructor, speaking as a former senior resident inspector, said that
information received in the technology classes contributed directly and
substantively to the quality of work performed. The instructor stated that “had
I been required to figure it all out upon arrival on site, as opposed to having a
reference to look to, I could not have been as successful as I was.” And
finally, an NRR executive said a real concern with inspector interns is that,
although the interns are required to qualify on at least one of the plant types
(e.g., BWR or PWR), they have no experience at all in actual plant
operations. “The lack of vendor-specific training compounds that problem.”

Summary

It has become increasingly important to have inspectors work as efficiently as
possible given the challenges faced by the agency to keep qualified
inspectors available for baseline inspection activities. As discussed in the
previous finding, the agency is relying more on inspectors who have only a
“basic” certification to fill the numerous resident inspector slots which results
in more inspectors with less experience in the field. In addition, resident
inspectors are being tasked to conduct inspections in areas outside of their
                                34
                                                       Audit of NRC’s Baseline Inspection Program

        comfort zones. There are many possible negative outcomes from inspecting
        outside an area of expertise, being unfamiliar with vendor specifics, or being
        mismatched between technology training and assigned plant. These include
        (1) missed opportunities to recognize degradation and non-compliance, (2)
        inappropriate assessment of inspection findings, (3) impaired evaluation of a
        utility’s performance and safety, and (4) unfamiliarity with specific emergency
        operating procedure approaches.

        RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        6.     Provide additional management guidance for assigning inspectors to
               perform inspection procedures to ensure that inspectors are
               adequately qualified for their assignments.

        7.     Provide guidance for vendor-specific training in resident inspector
               training requirements.


D. THE REPORT OF 100 PERCENT BASELINE INSPECTION PROGRAM
COMPLETION IN CY 2002 IS NOT FULLY SUPPORTED BY DOCUMENTATION

        In CY 2002, NRC guidance required 100 percent completion of the minimum
        samples specified in all baseline inspection program inspection procedures.
        Overall, for those plants sampled, the majority of the baseline inspection
        program was completed in CY 2002, as required. However, there are
        numerous examples of incomplete or missed procedures, due mainly to
        inconsistent interpretation of completion requirements and reliance on
        inaccurate data, which were not properly identified to headquarters.
        Additionally, available documentation does not support completion of
        inspection requirements for a number of baseline procedures, especially in
        the areas of Radiation Protection and Physical Security Protection.
        Therefore, agency records did not sufficiently support NRC’s claim that 100
        percent of the required baseline inspection program was completed at all
        reactor sites in the CY 2002 inspection cycle. As a result, despite the belief
        of agency managers that the intent of the program was met, NRC may not
        have a comprehensive view of plant operations which could hinder NRC’s
        ability to evaluate plant operations. Finally, inaccurate reporting undermines
        NRC’s credibility which could impact public confidence.

        Background

        In 2000, the agency established the baseline inspection program as the
        minimum level of oversight necessary to assess licensee performance.
        According to IMC 2515, baseline inspections constitute an appropriate level
        of inspection at plants whose overall performance remains in a good
        category. The overall objective of the program is to monitor all power reactor
        licensees with a consistent level of defined requirements to indicate whether

                                       35
                                                                 Audit of NRC’s Baseline Inspection Program

            licensees' performance meets the objectives for each cornerstone of safety.
            The baseline inspection program defines the planned activities (i.e.,
            inspection procedures) to monitor licensee performance over a 12-month
            period (i.e., an ROP cycle).

            In 2002, OIG’s audit of various elements of operations at the four NRC
            regional offices22 concluded that reporting on completing the baseline
            inspection program was a challenge for NRC staff and management.
            Regional managers stated that they received limited guidance on the
            definition of terms, results presentation, procedures for data collection and
            computations, and expectations for quality control. Due to its importance in
            supporting the agency's mission, OIG again sampled the extent of baseline
            inspection program completion using data for the CY 2002 inspection cycle.
            (For a full discussion of the results of OIG’s review, see Appendix D.)

                     Program and Reporting Responsibilities

            NRC's four regions constitute the agency's front line in carrying out its
            mission to protect the health and safety of the public by ensuring the safe
            operation of nuclear power plants. The regions track their accomplishments
            in these areas against performance metrics established jointly by
            headquarters and regional managers. For example, according to IMC 2515,
            each regional office is responsible for developing annual site-specific
            baseline inspection plans. However, NRR senior managers are responsible
            for the overall program direction, revisions to the program, as well as
            overseeing regional implementation.

            Baseline inspection results are reported in formal reports, in accordance with
            the guidance and requirements of IMC 0612. Two of the objectives of
            inspection reports are: (1) clearly communicate significant inspection results
            in a consistent manner to licensees, NRC staff, and the public, and (2)
            provide inspection results as one input into the Operating Reactor
            Assessment Program of the ROP.

                     Completion Requirements

            Completion of the baseline inspection program is a mechanism for NRC to
            remain alert to plant status and conditions at all licensed reactors, and
            supports the goals and objectives of the ROP. To determine that the
            objectives of the inspection procedures have been met, each baseline




22
     NRC Reports (all dated February 26, 2003) - OIG-03-A-06, Management Audit of Region I; OIG-03-A-
     07, Management Audit of Region II; OIG-03-A-08, Management Audit of Region III; OIG-03-A-09,
     Management Audit of Region IV; and OIG-03-A-10, Headquarters Action Needed on Issues Identified
     from Regional Audits.
                                               36
                                                                    Audit of NRC’s Baseline Inspection Program

                procedure contains specific inspection requirements. There are more than
                40 inspection procedures, each with a specific minimum sample size and/or
                level of effort prescribed. (See Appendix E for a list of baseline inspection
                program procedures.)

                The inspection activities and minimum sample sizes must be completed to
                provide an adequate assessment for each cornerstone. Inspection
                procedure completion status is to be documented in the NRC's Reactor
                Program System.

                       Baseline Performance Goal

                The agency recently changed its performance requirements for completion of
                the baseline inspection program for an annual inspection cycle. (These
                changes will be discussed later in this report.) However, for ROP inspection
                cycle 3 (ROP3), the scope of this review, the definition of completion was
                performance of 100 percent of all required inspection procedures at each
                plant.

             Performance Measure for Planned Accomplishment Code 103-140,
                                 Baseline Inspections
                    (per NRR Fiscal Years 2002/2003 Operating Plans)

Program               Type of            Describe what needs to                      Target
                      Measure                be measured
Reactor                 Outputs        Extent of program completion at     100% at end of cycle
Inspection                             each operating power reactor
                                       annually



                In an April 21, 2003, paper to the Commission,23 the EDO reported that the
                baseline inspection program was completed during ROP3 (CY 2002) in all
                regions. He added that all annual and biennial inspections were completed
                by the end of CY 2002. Subsequently, the agency reported to Congress that
                the baseline inspection program was completed for CY 2002 (i.e., 100
                percent of all required procedures completed per IMC 2515).

                       Results of OIG’s Baseline Completion Review

                 Documentation is a basic quality control procedure. Therefore,
                 documentation should be complete and accurate and should facilitate
                 tracking the transaction or event and related information. Documentation
                 should also be purposeful and useful to managers in controlling their
                 operations and to others involved in analyzing operations or decision


23
        SECY-03-0062, Reactor Oversight Process Self-Assessment for Calendar Year 2002, dated April 21,
        2003.

                                                   37
                                                                   Audit of NRC’s Baseline Inspection Program

             making. Without adequate documentation, senior management does not
             know if metric data is reliable and can be used for making meaningful
             decisions.

             Overall, the agency completed the majority of required baseline inspection
             procedures for those plants sampled. However, throughout the review of
             inspection completion for CY 2002, OIG found occurrences of incomplete
             procedures at all four regions due, in large part, to documentation problems
             (see partial list of examples below). Therefore, agency records do not
             support its reported claim that 100 percent of the baseline inspection
             program was completed for CY 2002.

              Examples of Incomplete Baseline Inspection Procedures
                               ROP3 for CY 2002

         Procedure No.        Procedure Title             Condition              Cause
       71114.06               Drill Evaluation            incomplete        double-counted
                                                          sample            procedures

      71111.14                Personnel Performance       ½ the required    ambiguous
                              During Nonroutine           samples done      language
                              Evolutions and Events

      71111.23                Temporary Plant             incomplete        lack of
                              Modifications               sample            documentation

      71114.04                Emergency Action Level      incomplete        inaccurate
                              & Emergency Plan            sample            documentation
                              Changes

      71121, 71122, &         Radiation Protection and    unable to         weak or
      71130 Series            Physical Security           discern actual    inconsistent
                              Protection                  sample size       supporting
                                                                            documentation


             The lack of clearly identifiable samples and weak supporting evidence in
             inspection reports occurred due, in large part, to insufficient guidance on
             how, and what, to document to demonstrate completion. Specific reasons
             identified by agency managers for failure to meet the 100 percent
             completion target of some procedures in CY 2002 included:

             #        inconsistent interpretations of completion,

             #        lack of quality controls related to the Reactor Program System (i.e.,
                      access, validation of data),

             #        confusion over which procedures can be “double-counted,24” and



24
     OIG used the term “double-count” to mean crediting the conduct of samples for one procedure towards
     the sample size of another procedure.
                                                 38
                                              Audit of NRC’s Baseline Inspection Program

#      ambiguous language in the procedure resulted in identifying incorrect
       sample sizes.

Similar to the information communicated to region managers during our
2002 regional reviews, OIG found insufficient documentation during this
audit to support reported sample sizes by all four regions, especially with the
Radiation Protection and Physical Security Protection inspection
procedures. Some of these weaknesses may have contributed to NRC
managers’ inability to identify an incomplete program. For example,

<      report language does not describe the required inspection activities
       necessary to support that the intent of the procedures were met, and

<      report language does not consistently identify which inspection is
       satisfied (i.e., annual or biennial inspection, “full” or "partial"
       inspection activity).

       Reliance on the Reactor Program System

Managers rely on data from baseline tracking tools, like the Reactor
Program System, to determine completion status and they expect their
inspectors, or their designees, to enter samples accurately. However, within
OIG's sample, numerous data reliability and validity issues were identified
with the Reactor Program System data. Given the limited nature of the
sample, the extent of the inaccuracies is unknown. OIG will address issues
with the Reactor Program System in a future audit.

Summary

The baseline inspection program is the “minimum” inspection oversight that
should be conducted at each plant with a 100 percent completion
performance target. While the majority of the required baseline procedures
were completed in CY 2002, baseline inspection program records could not
sufficiently support the agency’s reported 100 percent completion rate. The
cited weaknesses in documentation and completion data presented
management with challenges for interpreting reported results. Regional
managers and inspectors again stated that they have received limited
guidance on the definition of terms, results presentation, procedures for data
collection and computations, and expectations for quality control. For
example, regional managers expressed confusion about which procedures
could be combined for “double-counting” samples.

When internal assessment data is included with data reviewed at the agency
level, there must be an expectation that some agency managers will use the
information to make assessments or draw conclusions about the particular
program. Therefore, any data reported must be sufficiently reliable for that
purpose. To meet that goal, the process for compiling, reviewing and
reporting the data must have adequate management controls. Absent such
assurances, the usefulness of baseline inspection program information for

                              39
                                                  Audit of NRC’s Baseline Inspection Program

     decision making is limited. For example, if the completion data in the
     Reactor Program System is not accurate, NRC managers cannot be
     assured that the “minimum” baseline inspection program has been
     accomplished. If the defined “minimum” program is not completed, NRC
     may not have a comprehensive view of plant operations which impacts the
     agency’s ability to assure safe plant operations. Finally, NRC’s inability to
     provide sufficient documentation to support the reported 100% completion of
     the baseline inspection program undermines the agency’s credibility which
     could compromise public confidence in NRC.


     RECOMMENDATION

     OIG recommends that the Executive Director for Operations:

     8.     Improve baseline inspection program guidance to include:

            a)     direction for implementing a baseline inspection program
                   completion tracking process using RPS to collect inspection
                   completion data at a plant level and in real-time,

            b)     how to document completion and sample sizes in inspection
                   reports, and

            c)     whether performance of one inspection procedure sample
                   can be counted as a sample for another.


E. GUIDANCE IS UNCLEAR FOR NEW BASELINE COMPLETION CRITERIA

     For CY 2004, baseline inspection program completion has been redefined to
     be “not more than four (4) inspection procedures not completed, per
     Region.” Agency documents indicate the change provides needed flexibility
     in completing required inspections. However, headquarters has provided
     little guidance to region managers regarding its expectations regarding the
     allowance of four non-completed procedures. This may result in possible
     misuse of allowances and/or inconsistent application in and across regions,
     insufficient information to assess licensee performance and, thereby, impact
     public confidence in NRC’s oversight activities.

     Background

     Since its inception, completion of the ROP’s baseline inspection program
     has been defined as performance of 100 percent of the minimum sample
     size for all required inspection procedures at each plant. For the CY 2004
     inspection cycle, NRC redefined completion to allow no more than four non-




                                   40
                                               Audit of NRC’s Baseline Inspection Program

completed inspection procedures per region. This annual allowance of
sixteen non-completed inspection procedures equates to an annual
completion rate of “greater than 99.5 percent.”

       Reason for Change

The new allowance for non-completed inspection procedures is intended to
provide for unanticipated disruptions in inspection scheduling that
unavoidably cause an inspection procedure or attachment to not be
completed. It also presumes that at least the minimum inspection
requirements will otherwise be completed as soon as possible within the
quarter immediately following the annual inspection cycle. The agency
asserts that achieving this level of performance still provides a basis to
conclude that the intent of the program has been met and, therefore, can be
reported as complete for each annual cycle.

       Management Uncertainties

NRC’s inspection manual states the new completion requirements, however
headquarters and region managers have differing interpretations of the new
performance measure and its planned usage. While some managers
express different assumptions and expectations, all agree there has been
little, if any, actual discussion regarding the changed parameters, and no
formal guidance provided by headquarters. For example, in a recent
discussion about the new criteria, a cognizant headquarters’ manager stated
that all required procedures are expected to be completed at all plants within
the year cycle, though as many as 16 procedures could be postponed for up
to three months in warranted situations (e.g., samples not available within
the inspection year). Yet, one region executive stated that the actual goal is
still 100 percent completion and the flexibility to miss procedures is the
fallback goal, while another region has already changed its performance
measure to reflect less than 100% completion.

Because the guidance and criteria provided regarding this change is
unclear, region managers could not answer important questions about its
application. Specifically, OIG asked:

C      Is it reasonable to miss all four procedures at one plant, or all in risk
       significant areas?

C      Are there procedures which cannot be among those missed?

C      Are there specific plants where all procedures must be completed,
       despite the region-wide allowance?

C      What kind of tracking will be maintained to ensure that each plant
       does not come in at the end of the cycle with four missed
       procedures?


                               41
                                            Audit of NRC’s Baseline Inspection Program

Without clearly communicating its expectations regarding the new
performance goal, the agency risks inconsistent application, at a minimum.
Less likely, but potentially more worrisome, would be possible widespread
misuse of the allowance (due to the absence of tracking which procedures at
which plants are not being completed). It is important to note that NRC
previously established that 100 percent completion of all inspection
procedures was the “minimum” oversight necessary to assess licensee
performance. Without a sound basis for justifying any reduction in the
criteria, public confidence could be impacted.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

9.     Clarify existing guidance regarding the expectations and
       requirements for invoking the new completion criteria.

10.    Provide a method for tracking inspection procedures not performed
       as required by years end in order to ensure that each region stays
       within the four-procedure allowance.




                             42
                                                     Audit of NRC’s Baseline Inspection Program


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Document the basis and rationale for the determined baseline
               inspection program sample sizes, including a discussion of when, or
               why, to use more than minimum samples.

        2.     Develop guidance on how to identify human performance trends and
               how that information should be integrated into the reactor oversight
               process.

        3.     Develop and implement guidance for documenting, tracking, and
               trending informal inspection issues.

        4.     Define “effectiveness” as it pertains to the ROP and establish
               performance measures and targets to demonstrate that the baseline
               inspection program meets that definition.

        5.     Develop a planned, scheduled approach for phasing out the use of
               the coping measures.

        6.     Provide additional management guidance for assigning inspectors to
               perform inspection procedures to ensure that inspectors are
               adequately qualified for their assignments.

        7.     Provide guidance for vendor-specific training in resident inspector
               training requirements.

        8.     Improve baseline inspection program guidance to include:

               a)     direction for implementing a baseline inspection program
                      completion tracking process using RPS to collect inspection
                      completion data at a plant level and in real-time,

               b)     how to document completion and sample sizes in inspection
                      reports, and

               c)     whether performance of one inspection procedure sample
                      can be counted as a sample for another.

        9.     Clarify existing guidance regarding the expectations and
               requirements for invoking the new completion criteria.

        10.    Provide a method for tracking inspection procedures not performed
               as required by years end in order to ensure that each region stays
               within the four-procedure allowance.



                                      43
                                                    Audit of NRC’s Baseline Inspection Program


V. AGENCY COMMENTS

       On August 30, 2004, OIG discussed its draft report with agency senior
       executives. Subsequent to that meeting, OIG met with NRR senior
       managers to address issues and comments needing further clarification
       and/or explanation. On November 23, 2004, the EDO provided a formal
       response to this report in which he agreed with nine of the report’s eleven
       recommendations. However, the EDO stated that Recommendation 3 is not
       appropriate under the current ROP philosophy and that Recommendation 5
       would be better addressed through the agency’s response to
       Recommendation 4. The EDO’s transmittal letter and specific comments on
       this report are included as Appendix F.

       This final report incorporates revisions made, where appropriate, as a result
       of the subsequent meetings and the agency’s informal and formal written
       comments. Because OIG takes exception to the agency’s comments
       regarding Recommendations 3 and 5, a point-by-point analysis is presented
       in Appendix G. Recommendation 5 has been retracted and will be
       addressed, as the agency requested, through the agency’s response to
       Recommendation 4. However, upon submittal, OIG will evaluate the
       agency’s proposed plan of action for addressing Recommendation 4 to
       ensure that the intent of Recommendation 5 is incorporated.




                                     44
                                                       Audit of NRC’s Baseline Inspection Program

                                                                              APPENDIX A


SCOPE AND METHODOLOGY

       The reactor inspection and performance assessment program is mission-
       critical for NRC. Therefore, because all elements of the program must be
       effective and efficient in order for NRC to meet strategic and performance
       goals, OIG will be reviewing each of the elements of the ROP. In 2002, OIG
       reported on the Significance Determination Process, an important part of the
       baseline inspection program, and found that a number of improvements
       were needed. Review of another element of the ROP (e.g., performance
       indicators or the reactor assessment process) is included in OIG’s future
       plans.

       The scope of this review was limited to the ROP's baseline inspection
       program. The objectives were to determine whether the baseline inspection
       program:

       (1)    is based on a sound methodology,

       (2)    is carried out by sufficient, qualified staff, and

       (3)    is completed at all operating commercial nuclear power plants.

       For the third objective, the auditors examined a sample of program results
       for CY 2002, the last full year of program operation at the time of this review.

       To address the audit objectives, OIG reviewed relevant management
       controls and related documentation, including reviews of:

       •      Management Directive 8.13, Reactor Oversight Process

       •      IMC 0102, Oversight and Objectivity of Inspectors and Examiners at
              Reactor Facilities

       •      IMC 0307, Reactor Oversight Process Self-Assessment Program

       •      IMC 0308, Reactor Oversight Process (ROP) Basis Document

       and conducted interviews with more than 100 individuals, including:

       C      40+ headquarters and region senior managers,

       C      7 of 14 ROP development team members,

       C      resident inspectors and licensee management at 11 nuclear power
              plants,

       C      region-based senior reactor analysts,
                                       45
                                               Audit of NRC’s Baseline Inspection Program



C      representatives from the Nuclear Energy Institute,

C      representatives from public interest groups,

C      a State resident inspector,

C      the NRC statistician, and

C      Department of Transportation OIG audit staff

This audit progressed in two phases. OIG began its review of the baseline
inspection program in August 2003. In response to an agency request in
February 2004, OIG reviewed the agency’s Operating Experience Task
Force Report and subsequently issued a memorandum report in March
2004. OIG completed its full assessment of the baseline inspection program
in May 2004.

This audit was conducted in accordance with generally accepted
Government auditing standards and included a review of management
controls related to the objectives of this audit. The major contributors to this
report were Russ Irish, Team Leader; Cathy Colleli, Audit Manager; and
Robert Moody, former Audit Manager.




                               46
                                                                     Audit of NRC’s Baseline Inspection Program

                                                                                             APPENDIX B

DISCUSSION OF GUIDANCE ON PERFORMANCE AND OUTPUT
MEASURES

              Planned Accomplishments

              At least as early as October 1998, NRC established guidelines for internal
              output measures for Planned Accomplishments.25 A model was provided
              which suggested establishing metrics for:

              ‘        effectiveness [the accomplishment of the desired result]

              ‘        efficiency [accomplishing the desired result without wasting
                       resources]

              ‘        quality [degree of excellence]

              ‘        quantity [how many]

              ‘        timeliness [performance of the activity within defined milestones]

              NRC offices were required to establish, at a minimum, an effectiveness
              metric at the Planned Accomplishment level if there were no performance
              plan output measures for that accomplishment. For the period subject to this
              review, there was no performance plan output measure specifically defined
              for effectiveness in the baseline inspection program.

              Operating Plan

              The NRR FY 2004 Operating Plan describes the planning, budgeting, and
              performance management process as implemented by NRR. The process is
              directed toward achieving organizational effectiveness by:

              ‘        Setting strategic direction

              ‘        Determining Planned Accomplishments and resources by identifying
                       critical activities necessary to achieve outcomes

              ‘        Measuring and monitoring performance against measures and
                       targets

              ‘        Assessing performance


              The Operating Plan defines success for all Planned Accomplishments and


25
     NRC defines a Planned Accomplishment as a level of discrete activity below the program level,
     where FTE and budgetary resources can be identified.
                                                   47
                                                                    Audit of NRC’s Baseline Inspection Program

              includes planning templates for each accomplishment discussed in the plan.
              Each template establishes the measures of success and targets for NRR
              management.

              For the baseline inspection program, there is one Planned Accomplishments
              Code, #103-140 - Baseline Inspections, which includes both Leadership and
              Operational measures and targets. Baseline inspection program
              performance results for measures in the Operating Plan are reported in the
              NRR Rainbow Report,26 along with other performance statistics. OIG
              reviewed the baseline inspection program's performance measures and
              targets to determine whether they:

              <        tie to the NRC’s mission and represent essential components of the
                       program

              <        provide useful information to managers for decision-making

              <        provide a basis for comparison against a baseline of performance

              <        are clearly understandable in terms of measures and comparisons

              <        reflect the most important aspects of performing the activity

              Inconsistencies in baseline inspection program objectives

              In contrast to the objectives defined for the baseline inspection program in
              IMC 2515, Appendix A, the NRR Operating Plan planning template for
              Planned Accomplishments Code 103-140 describes the “Purpose” of the
              baseline inspection program’s Planned Accomplishment as:

                       To collect information providing objective evidence that power
                       reactors are operated safely and do not pose an undue risk to
                       the public, to identify declining safety performance, and to
                       identify safety-significant issues that may have generic
                       applicability.

              The planning template “Purpose” statement actually reflects the objectives of
              the Light-water Reactor Inspection Program–Operations Phase, which
              encompasses all aspects of the inspection effort at power reactors, not just
              the baseline inspection program.27




26
     The NRR Rainbow Report is available at http://nrr10.nrc.gov/rainbow/rbooks.html.

27
     Complete Light-water Reactor Inspection Program objectives are provided in NRC IMC 2515.

                                                  48
                                                                      Audit of NRC’s Baseline Inspection Program

              The stated Purpose of the baseline inspections Planned Accomplishment
              should be aligned with the objectives of the program. If this is not done,
              performance measures and targets may not be developed in alignment with
              program objectives.

              OMB Guidance

              In the President’s Budget for FY 2004, OMB28 describes its initiative to
              implement performance budgeting throughout the Federal government in
              2005 as follows:

                       The agency should develop a ‘performance budget,’
                       organized like its Strategic Plan that matches resources with
                       outputs and justifies resources requested by the effectiveness
                       at influencing the desired outcomes.

              As OMB describes for budgeting purposes, NRC must link the performance
              of day-to-day activities, like baseline inspections, to long-term, higher level
              performance goals in order to build a solid foundation for managing program
              performance and achieving performance and strategic goals.

              Strategic Plan - Goals and Performance Measures

              The NRC has developed strategic goals consistent with its mission. These
              strategic goals are supported by performance goals, which represent
              outcomes the NRC plans to achieve over the period covered by the FY
              2004-FY 2009 Strategic Plan. In NRC’s Strategic Plan, Performance Goal
              129 is: Ensure protection of public health and safety and the environment.
              There are several performance or outcome measures associated with this
              goal.30

              Planning Template Performance Measures

              Item #6: In accordance with OMB’s guidance, NRR's operating planning
              template Item #6: Tangible Contribution, asks What is the tangible
              contribution to the outcome goals...in the core activity from doing this work?
              (What will success look like or what will we measure to know that this activity


28
     Office of Management and Budget Circular No. A-11, Preparation, Submission, and Execution of the
     Budget, revised July 16, 2004.

29   NUREG-1614, Vol. 3, U.S. Nuclear Regulatory Commission Strategic Plan, FY 2004-FY 2009,
     dated August 2004.
30
     (1) No more than one event per year identified as a significant precursor of a nuclear accident, (2) No
     statistically significant adverse industry trends in safety performance, (3) No events resulting in
     radiation overexposures from nuclear reactors that exceed applicable regulatory limits, (4) No more
     than three releases per year to the environment of radioactive material from nuclear reactors that
     exceed the regulatory limits, and (5) No breakdowns of physical security that significantly weaken the
     protection against radiological sabotage or theft or diversion of special nuclear materials in accordance
     with abnormal occurrence criteria.
                                                   49
                                              Audit of NRC’s Baseline Inspection Program

was successful? Specific quantitative terms.) Planning template item #6
asks how baseline inspections contribute tangibly to the agency’s outcome
goals. Item #6 also asks for a specific quantitative measure of baseline
inspections success. The response to item #6 is:

       Provides information to allow management to make decisions
       regarding licensee safety performance. Maintained safety is
       reflected in a technically credible basis for reactor
       performance assessments, as reflected in inspection reports
       and performance indicator information. Public confidence is
       supported by a stable, predictable, and understandable
       process.

The answer to item #6 does not provide specific quantitative terms for
measuring baseline inspections’ tangible contribution to the outcome goals
and does not describe what should be measured to know that baseline
inspections were successful.

Items #7 & #9: Planning template items #7 and #9 ask for other
performance measures, at the leadership and operational levels,
respectively, that should be used to ensure that this Planned
Accomplishment is in control. The table presented in Appendix C shows the
results of OIG's analysis of the specific leadership and operational
performance measures and targets. At the operational level, management
should include, when possible, measures for each of the performance
categories: effectiveness, efficiency, quality, quantity, and timeliness. It is
important to have clear drivers or targets in each area to ensure the program
effort is not “pushed” in any one direction at the expense of others.

Effectiveness

October 1998 Operating Plan guidance from the Office of the Executive
Director for Operations stated that:

       A major area targeted for improvement in the FY 1999
       operating plans is the establishment of effectiveness metrics.
       All other metrics are superfluous if the program is not
       achieving its desired results or outcome. Effectiveness is
       also at the heart of self assessment. Therefore, effectiveness
       metrics are a required element for the FY 1999 operating
       plans.




                              50
                                                                   Audit of NRC’s Baseline Inspection Program

             Annual Review of Baseline Inspection Procedures

             IMC 0307 was issued and currently requires certain staff, called inspectable
             area leads,31 to monitor and report on the effectiveness and efficiency of
             inspection activities and program objectives within their assigned areas of
             responsibility. One of the primary objectives of this annual review is a critical
             ‘big picture’ evaluation of “all of the inspectable areas together to justify
             retaining them in the baseline inspection program, or determine if the
             addition of a new inspectable area is warranted.”

             In accordance with IMC 0307, multiple inspectable area leads32 recently
             completed the CY 2003 annual reviews of their assigned baseline
             procedures.33 They did not identify the need for any significant changes to
             the inspection program overall (i.e., either the addition or removal of
             inspection procedures). While there were a couple of procedures that were
             revised, the staff mainly recommended minor adjustments to levels of effort
             (i.e., hours), clarification of the definition of a sample, or how many samples
             constitutes completion.

             Although references to “effectiveness” appear in the individual procedures,
             as noted by the focus group, and as seen in the NRR Operating Plan, the
             agency has not defined what effectiveness means for the baseline
             inspection program. As a result, the agency cannot properly evaluate the
             effectiveness of the procedures, and thereby, the program. When a senior
             NRR executive was asked why there was no definition of “effectiveness,” he
             said this issue has been on his radar because he too realized the
             “effectiveness” of the baseline inspection program had never been
             measured. Another executive said that as a first step, NRR is putting interim
             graded measures into effect, but NRR needs to get closer between the
             operating plan and their strategic goals.

             Quality Measures

             In addition to effectiveness, “Quality” metrics should be developed.
             Monitoring only other types of measures and targets can drive performance
             in another direction at the expense of quality. For example, there is no
             measure showing whether inspectors do quality inspection work, a critical
             component of baseline inspection program success. Such a measure might,
             for example, reflect the quality of inspection samples chosen.



31
     An “inspectable area lead” is a person in the Division of Inspection Program Management of NRR
     assigned responsibility to oversee and manage the use of individual baseline inspection
     procedures or attachments to those procedures.
32
     For CY 2003, there were approximately 11 different NRR staff members serving as Inspectable area
     leads.
33
     The annual review did not include the physical protection procedures which were covered under a
     current NRC temporary instruction.
                                                 51
                                            Audit of NRC’s Baseline Inspection Program

Inconsistency in Performance Measure Guidance

IMC 2515, section 04.07, Baseline Inspection Program Completion states
that:

       Baseline Inspection Program completion for an ROP annual
       inspection cycle is defined to be not more than four (4)
       inspection procedures not completed, per Region. This 16
       inspection procedure allowance per year nationwide equates
       to an annual completion rate greater than 99.5%.

IMC 2515 thus defines the performance target for completion of the baseline
inspection program as 99.5% completion. However, the completion
performance target in the FY 2004 Operating Plan is 100%.

IMC 0307 - Inspection Program Metrics

IMC 0307 also includes the inspection program metrics used in the annual
reactor oversight process self-assessment. There are 11 inspection program
metrics in IMC 0307. Of those, the following are also reflected in the
performance measures reviewed above from the NRR Operating Plan for the
baseline inspection program:

<      Percentage of inspection findings documented in accordance with
       requirements

<      Completion of baseline inspection program

<      Inspection reports are timely

<      Analysis of inspection hours

None of the other seven metrics provides a direct measure of baseline
inspection program performance. Therefore, while IMC 0307 provides
metrics beyond those in the Operating Plan, none change the results of the
above review. For example, there are also no measures of effectiveness or
quality in IMC 0307.




                              52
                                                                  Audit of NRC’s Baseline Inspection Program

                                                                                           APPENDIX C
                 FY 2004 Operating Plan Baseline Inspection Program
                               Performance Measures

                          Planned Accomplishment Code 103-140


Type of     What to measure              Target                      OIG Evaluation
measure
  Leadership Team Measures and Targets
Outputs     Extent of program     100% (as defined in      Quantity measure - In the absence of a
            completion at each    IMC 2515 and 0306)       quality measure, the emphasis on
            operating power                                outputs/quantities could compromise
            reactor annually                               quality.

Resources   Budget (Total hours   ± 20% (monitoring        This measure should be used for
used        expended versus       only until appropriate   trending.
            budget)               levels are
                                  determined)

Other       Adequacy of site      100% of power            Quantity measure - shows compliance
            coverage              reactor sites staffed    with guidance. However, this is a
                                  in accordance with       secondary measure related to the
                                  policy.                  output measure above. That is, if the
                                                           above output target isn’t met, this could
                                                           be a cause.

  Operational Team Measures and Targets
Outputs     Baseline program      100% (as defined in      Quantity measure - In the absence of a
            inspection            IMC 2515 and 0306)       quality measure, the emphasis on
                                                           outputs/quantities could compromise
                                                           quality.




                                                53
                                                                           Audit of NRC’s Baseline Inspection Program


Type of        What to measure                    Target                      OIG Evaluation
measure
Productivity   Total hours expended        Within 20% of            Efficiency measure - This measure
               implementing baseline       estimate for single-,    provides efficiency information which is
               inspections per region      dual-, and triple-unit   useful to management for budgeting
               and per single-, dual-,     sites and within 10%     and performance monitoring.
               and triple-unit site        of estimate per region



               Hours expended for          (This measure used       N/A
               direct inspection effort    for trending and
               on baseline                 monitoring only)
               inspections as a
               function of total
               baseline hours per
               region
               (BI/BI+BIP+BID)

               Regional variance (per      Within 20%               Clarify - is this related to the measure
               site average)                                        directly above this one?

               Overtime contribution       (This measure used       N/A
               to direct inspection        for trending and
               effort (non-reg hrs/total   monitoring only)
               hrs)

Quality        Inspection report           90% of findings in the   Indirect Quality measure - This shows
               findings are                audited report sample    compliance with guidance and reflects
               documented in               are properly             the quality of report writing rather than
               accordance with             documented               the quality of the actual inspection
               program guidance in                                  finding.
               IMC 0612

               Ratio of qualified          Annual average of        Indirect Quality measure - provides
               inspectors to total         monthly ratios >         assurance that inspectors are qualified
               number of inspectors        (TBD)%                   to perform good inspection work.

Timeliness     issuance of inspection      90% of reports issued    Indirect timeliness measure - good
               reports                     within time limits (30   information but doesn’t directly
                                           days/45 days)            measure whether inspections
                                                                    themselves are performed timely.

Resources      Budget (Total hours         ± 20% (monitoring        This Efficiency measure should be used
used           expended versus             only until appropriate   for trending purposes.
               budget)                     levels are
                                           determined)

                  At the operational level, management should include, when possible,
                  measures for each of the performance categories: effectiveness, efficiency,
                  quality, quantity, and timeliness. It is important to have clear drivers or
                  targets in each area to ensure the program effort is not “pushed” in any one
                  direction at the expense of others.




                                                        54
                                                       Audit of NRC’s Baseline Inspection Program

                                                                           APPENDIX D


DETAILS OF OIG’S REVIEW OF CY 2002 BASELINE INSPECTION
PROGRAM COMPLETION

                Program responsibilities

         NRC's four regions constitute the agency's front line in carrying out its
         mission to protect the health and safety of the public by ensuring the safe
         operation of nuclear power plants. The regions track their
         accomplishments in these areas against performance metrics established
         jointly by headquarters and regional managers. For example, according
         to IMC 2515, each regional office is responsible for developing annual
         site-specific baseline inspection plans. However, NRR senior managers
         are responsible for the overall program direction, the revisions to the
         program, as well as overseeing regional implementation.

                Reporting of inspection results

         Baseline inspection results are reported in formal reports, in accordance
         with the guidance and requirements of IMC 0612. Two of the objectives
         of inspection reports are: (1) clearly communicate significant inspection
         results in a consistent manner to licensees, NRC staff, and the public,
         and (2) provide inspection results as one input into the Operating Reactor
         Assessment Program of the ROP.

                Baseline performance goal

         For the CY 2002 ROP3, the scope of this review, the definition of
         completion was performance of 100% of all required inspection
         procedures at each plant. In an April 21, 2003 paper to the Commission,
         the EDO reported that the ROP3 baseline inspection program was
         completed by the end of CY 2002 in all regions, including all annual and
         biennial inspections. Subsequently, the agency reported to Congress
         that the baseline inspection program was completed for CY 2002 (i.e.,
         per IMC 2515, 100 percent of required procedures completed).

                Completion requirements

         To determine that the objectives of the inspection procedures have been
         met, each baseline procedure contains specific inspection requirements.
         There are more than 40 inspection procedures, each with a specific
         minimum sample size and/or level of effort prescribed. (See Appendix E




                                     55
                                                                         Audit of NRC’s Baseline Inspection Program

                  for a full list of baseline procedures.) The inspection activities and
                  minimum sample sizes must be completed to provide an adequate
                  assessment for each cornerstone. Completion status is to be
                  documented in the NRC's Reactor Program System.

                  To test baseline completion for CY 2002, OIG selected a judgmental
                  sample of 12 operating nuclear power plants, 11 of which were reviewed
                  as part of this audit. Generally, the inspection cycle dates for ROP3
                  encompassed inspections performed from December 30, 2001 through
                  December 28, 2002.34



     Region I                 Region II                   Region III            Region IV
 1. Beaver Valley          4. Browns Ferry            7. D.C. Cook          10. Arkansas One
 2. Peach Bottom           5. Farley                  8. Braidwood          11. San Onofre
 3. Vermont Yankee*        6. St. Lucie               9. Kewaunee           12. Palo Verde

 (*although Vermont Yankee was originally selected for review, time constraints prevented auditors from
 including this plant as part of the audit)

                           Results of Review

                  For those plants sampled, the regions completed the majority of the
                  baseline inspection program for CY 2002. However, the following chart
                  shows the missed or incomplete procedures which were not properly
                  identified to headquarters.




34
                 The inspection cycle dates for Region II plants varied slightly and began as early as December
                 16, 2001 and ended as late January 4, 2003, depending on the plant.
                                                     56
                                                                      Audit of NRC’s Baseline Inspection Program



            Results of CY 2002 Baseline Inspection Program Completion Sample

Region(s)          Procedure No.            Procedure Title         Condition            Cause

I                71114.06            Drill Evaluation           incomplete sample   double-counted
                                                                                    procedures

II               71111.14            Personnel Performance      incomplete sample   ambiguous
                                     During Nonroutine                              language
                                     Evolutions and Events

II               71151.00            Performance Indicator      incomplete sample   misinterpretation
                                     Verification                                   of guidance

II               71114.06             Drill Evaluation          incomplete sample   double-counted
                                                                                    procedures

III              71111.23            Temporary Plant            incomplete sample   lack of
                                     Modifications                                  documentation

IV               71111.04            Equipment Alignment -      intent not met      both inspections
                                     Semiannual                                     in same quarter

IV               71114.04            Emergency Action Level &   incomplete sample   inaccurate
                                     Emergency Plan Changes                         documentation


IV               IP 71114.06          Drill Evaluation          incomplete sample   double-counted
                                                                                    procedures

IV               71151               Performance Indicator      no evidence of      lack of
                                     Verification               completion          documentation


IV               71152               Identification and         no evidence of      lack of
                                     Resolution of Problems     completion          documentation

I, II, III, IV   71121, 71122, &     Radiation Protection and   unable to discern   weak or
                 71130 Series        Physical Security          actual sample       inconsistent
                                     Protection                 sizes               supporting
                                                                                    documentation


                               Conclusion

                   All four regions reported to headquarters that 100% of the ROP3 baseline
                   inspection program was complete for CY 2002. Subsequently, NRC
                   reported to Congress that this performance measure was fully completed
                   at all reactor sites in the CY 2002 inspection cycle. However, NRC
                   inspection program records for the 11 operating nuclear power plants
                   sampled were not sufficient to allow independent verification that all CY
                   2002 required baseline inspection samples were completed. For
                   example, inspection reports did not always provide sufficient




                                                         57
                                               Audit of NRC’s Baseline Inspection Program

documentation necessary to ensure the intent of the procedures were
met. Also, for a number of procedures it was extremely difficult to
determine from a review of inspection report documentation that at least
the required minimum sample sizes were complete. [emphasis added]

Similar to those reported to each region during OIG’s Regional Reviews,
areas in the inspection reports needing improvement include:

S      the number of samples were not clearly identifiable, especially in
       the Radiation Safety and Physical Security areas

S      language used did not describe the required inspection activities
       necessary to support that the intent of the procedures was met

S      reports did not identify whether the inspection satisfied an annual,
       biennial, or triennial inspection activity or if it is a semi-annual or
       "partial" inspection

S      no indication that an inspection was conducted by a specialist, as
       required

Managers rely on data from the baseline tracking tools, like the RPS, to
determine completion status and they expect their inspectors to enter
samples accurately. However, within OIG's limited sample, numerous
data reliability and validity issues were identified with the RPS data.
Because of the limited nature of the sample, the extent of the
inaccuracies in RPS is unknown.




                             58
                                                            Audit of NRC’s Baseline Inspection Program

                                                                                         APPENDIX E


BASELINE INSPECTION PROGRAM INSPECTION PROCEDURES

Procedure #                               Procedure Title
     71111 Reactor Safety - Initiating Events, Mitigating Systems, Barrier Integrity
71111.01                                                    Adverse Weather Protection
71111.02                                  Evaluation of Changes, Tests, or Experiments
71111.04                                                             Equipment Alignment
71111.05                                                                    Fire Protection
71111.06                                                      Flood Protection Measures
71111.07                                                          Heat Sink Performance
71111.08                                                  In-service Inspection Activities
71111.11                                    Licensed Operator Re-qualification Program
71111.12                                              Maintenance Rule Implementation
71111.13                   Maintenance Risk Assessments and Emergent Work Control
71111.14             Personnel Performance During Non-routine Evolutions and Events
71111.15                                                          Operability Evaluations
71111.16                                                           Operator Workarounds
71111.17                                                  Permanent Plant Modifications
71111.19                                                       Post Maintenance Testing
71111.20                                                 Refueling and Outage Activities
71111.21                              Safety System Design and Performance Capability
71111.22                                                              Surveillance Testing
71111.23                                                  Temporary Plant Modifications
71114.01                                                              Exercise Evaluation
71114.02                                                Alert Notification System Testing
71114.03                              Emergency Response Organization Augmentation
71114.04                        Emergency Action Level and Emergency Plan Changes
71114.05         Correction of Emergency Preparedness Weaknesses and Deficiencies
71114.06                                                                   Drill Evaluation
     71121 Occupational Radiation Safety
71121.01                               Access Control to Radiologically Significant Areas
71121.02                                                  ALARA Planning and Controls
71121.03                                           Radiation Monitoring Instrumentation
     71122 Public Radiation Safety
71122.01                       Radioactive Gaseous and Liquid Effluent Treatment and
                                                                      Monitoring Systems
71122.02                             Radioactive Material Processing and Transportation
71122.03                           Radiological Environmental Monitoring Program and
                                                  Radioactive Material Control Program




                                               59
                                                          Audit of NRC’s Baseline Inspection Program

Procedure #                             Procedure Title
      71130 Physical Protection
71130.01                    Access Authorization Program (Behavior Observation Only)
71130.02                Access Control (Search of Personnel, Packages, and Vehicles:
                                                        Identification and Authorization)
71130.03                     Response to Contingency Events (Protective Strategy and
                                                 Implementation of Protective Strategy
71130.04                                                          Security Plan Changes
            Other Baseline Procedures
71150                            Discrepant or Unreported Performance Indicator Data
71151                                                 Performance Indicator Verification
71152                                         Identification and Resolution of Problems
71153                                                                     Event Followup




                                              60
                       Audit of NRC’s Baseline Inspection Program

                                                    APPENDIX F


AGENCY COMMENTS




                  61
     Audit of NRC’s Baseline Inspection Program




62
                            Audit of NRC’s Baseline Inspection Program




[Page intentionally left blank.]




              63
                                                           Audit of NRC’s Baseline Inspection Program

                                                                                        APPENDIX G
DETAILED OIG ANALYSIS OF AGENCY COMMENTS

Recommendation 3: Develop and implement guidance for documenting, tracking, and
trending informal inspection issues.


      Staff comments: Programmatic documentation, tracking and trending of minor findings,
      which includes what the OIG audit report calls informal inspection issues, is not
      appropriate and not required under the current Commission-approved Reactor Oversight
      Process (ROP) philosophy of a risk-informed approach. The inspection program was
      developed to be objective and includes guidance for establishing a minimum threshold
      for documenting and assessing inspection findings. Commission emphasis in Staff
      Requirements Memoranda for SECY-99-007A and SECY-00-0049 was to limit
      documentation and analysis of findings of lower safety significance. The resources
      saved from not having to programmatically document minor findings are intended to be
      directed toward areas where there may be findings of greater risk significance.
      Redirecting limited inspector resources toward formal monitoring of minor findings which
      are less than very low risk significance would detract from the intended safety focus of
      the baseline inspection program.

      Although minor findings are not documented in inspection reports, the ROP explicitly
      allows minor findings to be conveyed to a licensee verbally for appropriate resolution.
      The feedback received from NRC regional managers indicates that this communication
      process is working well.

      In summary, the additional resources required to develop and implement formal tracking
      and trending of minor inspection findings do not justify the benefit from such a program.
      Additionally, it would be contrary to the Commission’s direction to use a risk-informed
      approach to focus agency and licensee attention on issues of risk significance.

      We request that OIG consider retracting this recommendation




                                              64
                                                            Audit of NRC’s Baseline Inspection Program




OIG Response:
The staff correctly states that SECY-99-007A and SECY-00-0049 provide the Commission’s
direction for a risk-informed ROP with emphasis on documenting information at a defined
threshold based on risk significance. It is also correct that the ROP allows information falling
below the designated threshold to be communicated verbally to licensees. OIG does not
dispute that the verbal communication process works well. The issue is not the disposition of
minor “findings” but rather those issues which fall below the threshold defined in the ROP as
reportable in inspection reports.

NRC officials stated that they view informal issues as very important to improving plant
operations. Licensee officials stated that they appreciate NRC inspectors bringing informal
issues to their attention and that they viewed discussion of informal issues as being proactive
and predictive of potential performance problems at their plants. In fact, several agency and
licensee officials viewed informal issues as more important to improving plant operations than
those formal inspection findings identified in NRC inspection reports.

The staff’s assertion that this recommendation would result in “redirecting” inspector
resources towards formal monitoring is misleading. It is important to note that OIG is not
taking exception with the direction given by the Commission in the cited SECY papers.
However, the reality is that regardless of whether the threshold is met for formal
documentation, agency inspectors and managers are already expending varying levels of
time and energy to track and trend informal issues. Similarly, licensees already take action to
correct informal issues in virtually all cases.

OIG believes it is important that the agency recognize the current situation as reflected in the
report; specifically, the inconsistent guidance provided by agency managers and the ad hoc
nature used by staff to handle this type of information. This information would be much more
useful to the agency if it were consistently managed and could be analyzed for trends.
Therefore, OIG stands by its recommendation in order to resolve the inconsistent disposition
of informal issues.



Recommendation 5: Establish performance measures and targets which demonstrate
the quality of baseline inspections.

      Staff comments: The staff disagrees with this recommendation. From discussions with
      OIG staff, we understand this issue to be focused at the quality of individual inspections.

      The quality of day-to-day inspection activities is the responsibility of regional
      management, who employ a variety of tools to assess inspection quality, such as daily
      telephone discussions with inspectors, debriefs with inspectors after inspections, review
      of draft inspection reports, consideration of integrated licensee performance, and
      periodic site visits. In addition, licensees are afforded opportunities during their
      management interactions with NRC management to express concerns regarding the
      effectiveness of NRC inspectors at their sites. We do not believe that defining ?quality”
      as it pertains to inspection activities is amenable to quantification through metrics and
      targets. The one suggestion proposed by OIG to illustrate a possible staff response to
                                               65
                                                           Audit of NRC’s Baseline Inspection Program

     this recommendation (after-the-fact revisitation of how an inspector selected his/her
     inspection sample) would not be consistent or objective.

     We believe this recommendation is better viewed as subsumed within the intent of
     recommendation 4 of the OIG audit. In accepting recommendation 4, the staff intends to
     clarify what is meant by effectiveness within the context of the ROP, and to demonstrate
     that the performance measures and targets (i.e., metrics), which are used by the ROP
     self-assessment process, comprehensively monitors measurable ROP outcomes. The
     quality of program activities (including inspection) can be inferred from these measurable
     ROP outcomes. The quality of the work of individual inspectors is best assessed via the
     existing NRC Performance Appraisal System.

     Based on this information, the staff recommends that OIG remove this recommendation
     from the draft OIG report.



OIG Response:
The most critical aspects of evaluating an activity, like baseline inspections, would be an
assessment of that activity’s effectiveness and quality, but OIG acknowledges the difficulty in
identifying quantitative “quality” measures. While OIG agrees with the agency that the
appropriate mechanism for assessing the quality of an inspector’s individual work is the NRC
Performance Appraisal System, quality performers are only one facet of how effective the
inspection program is overall. As OIG explained to senior NRR managers, the quality of
other parts of the program need evaluation as well, such as a quality assessment of the
areas identified to receive baseline inspections and the quality of samples selected in the
ROP for mandatory inspection.

As the report identifies, there are weaknesses in the agency’s process for self-assessing the
effectiveness and quality of the inspection program. The agency accepted the report’s
Recommendation 4 to define effectiveness as it pertains to the ROP and, in doing so,
proposes to demonstrate that the metrics used in the self-assessment process will
comprehensively monitor measurable outcomes. It is the agency’s contention that the
“quality” of inspections can be inferred from these measurable outcomes. OIG accepts the
agency’s premise under a presumption that the conduct of high quality inspection activities
would be necessary to deem the overall baseline program as “effective.” However, upon its
submittal, OIG will carefully evaluate the agency’s proposed plan of action for addressing
Recommendation 4 to ensure that the intent of this recommendation is incorporated.

Therefore, OIG agrees to retract this recommendation at this time.




                                              66
